<html>
<title> - THE INTERNATIONAL CONSUMER PROTECTION ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
           THE INTERNATIONAL CONSUMER PROTECTION ACT OF 2003

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2003

                               __________

                           Serial No. 108-45

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________







                       U.S. GOVERNMENT PRINTING OFFICE
89-470                       WASHINGTON : 1998
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                      Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
PAUL E. GILLMOR, Ohio                RALPH M. HALL, Texas
JAMES C. GREENWOOD, Pennsylvania     RICK BOUCHER, Virginia
CHRISTOPHER COX, California          EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
  Vice Chairman                      BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
CHARLIE NORWOOD, Georgia             BOBBY L. RUSH, Illinois
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           ELIOT L. ENGEL, New York
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JAN SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
ERNIE FLETCHER, Kentucky
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho

                   Dan R. Brouillette, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JAN SCHAKOWSKY, Illinois
BARBARA CUBIN, Wyoming                 Ranking Member
JOHN SHIMKUS, Illinois               HILDA L. SOLIS, California
JOHN B. SHADEGG, Arizona             EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      EDOLPHUS TOWNS, New York
GEORGE RADANOVICH, California        SHERROD BROWN, Ohio
CHARLES F. BASS, New Hampshire       JIM DAVIS, Florida
JOSEPH R. PITTS, Pennsylvania        PETER DEUTSCH, Florida
MARY BONO, California                BART STUPAK, Michigan
LEE TERRY, Nebraska                  GENE GREEN, Texas
ERNIE FLETCHER, Kentucky             KAREN McCARTHY, Missouri
MIKE FERGUSON, New Jersey            TED STRICKLAND, Ohio
DARRELL E. ISSA, California          DIANA DeGETTE, Colorado
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
W.J. ``BILLY'' TAUZIN, Louisiana       (Ex Officio)
  (Ex Officio)

                                  (ii)





                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    MacCarthy, Mark, Senior Vice President, Public Policy, Visa, 
      USA........................................................    29
    Muris, Hon. Timothy J., Chairman, Federal Trade Commission...     5
    Rotenberg, Marc, Executive Director, Electronic Privacy 
      Information Center.........................................    32
    Schwartz, Ari, Associate Director, Center for Democracy and 
      Technology.................................................    41

                                 (iii)

  


           THE INTERNATIONAL CONSUMER PROTECTION ACT OF 2003

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2003

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Shimkus, Terry, 
Issa, Otter, Schakowsky, Stupak, Green, and Dingell, (ex 
officio).
    Staff present: Ramsen Betfarhad, majority counsel; Kelly 
Zerzan, majority counsel; Jill Latham, legislative clerk; Vikki 
Ehrlich, deputy communications director; and Jonathan J. 
Cordone, minority counsel.
    Mr. Stearns. Good morning everybody, and welcome to the 
Subcommittee's legislative hearing on ``The International 
Consumer Protection Act of 2003.'' My colleagues, increasingly 
we hear of scams and other fraudulent and deceptive acts 
perpetrated against the American consumer by persons and 
companies that are located overseas.
    The Federal Trade Commission data shows a substantial rise 
in consumer complaints that they receive from U.S. consumers 
against foreign companies. The data shows that the number of 
cross-border fraud complaints collected by the FTC rose to over 
14 percent of all complaints, excluding identity theft. That 
number was just 1 percent in 1995.
    The same data shows that over 24,000 of those complaints by 
U.S. consumers were directed by foreign companies and 
represented 17 percent of all money lost to fraud in the year 
2002. Of the total number of U.S. consumer border fraud 
complaints, nearly half had to do with foreign money offers and 
advance fee loans.
    One quarter of the complaints involved scams around 
sweepstakes and free prices or gifts. Moreover, fraud and 
deception involving Internet auctions represented 10 percent of 
cross-border complaints that were filed in 2002.
    As a member closely involved in our committee's effort to 
draft anti-spam legislation, I found it particularly 
interesting that in more than 70 percent of the cases an 
American consumer is first contacted by fraudsters based 
overseas through the e-mail.
    This is true of fraudsters from all countries, except 
Canada, where the preferred method is still the telephone. 
Therefore, I agree with the Commission's view that enhancing 
the FTC's ability to address cross-border consumer fraud and 
deception more effectively will also have a real and 
substantial impact on reducing spam.
    I do think we also have a growing problem where the 
American consumer is victimized by way of fraud and/or 
deception that finds its genesis beyond our borders and beyond 
the present reach of our law enforcement and this trend will 
not subside.
    We all know that as consumers we are increasingly becoming 
part of a highly integrated global marketplace. There is no 
escaping that fact. Therefore, I strongly support the efforts 
of the FTC directed at combating cross-border fraud.
    In principle, I support the Commission's proposed 
legislation seeking enhanced authority that it deems necessary 
for it to effectively combat cross-border fraud. I am confident 
that at this time this legislation, when perfected, will become 
one of the most significant pieces of legislation authored by 
Congress in support of the American consumer.
    In the past few weeks, I, along with the ranking member of 
the subcommittee, have been working closely with the Commission 
to address our concerns with the proposed legislation, with the 
aim of perfecting this very important legislation.
    My objective is to ensure that the civil liberties of 
Americans are in no way undermined for the sake of combating 
cross-border fraud. Finally, I plan to continue working in a 
bipartisan fashion with the Commission and others toward the 
expeditious introduction and consideration by the committee 
members of a good bill, worthy of speedy approval.
    I invite all of my members of the subcommittee to join in 
our efforts by becoming original co-sponsors of this bill. So I 
look forward to our witnesses testimony and the enactment of a 
good bill protecting consumers from cross-border fraud this 
session of Congress. And with that, the ranking member.
    Ms. Schakowsky. Thank you, Chairman Stearns, for holding 
this hearing on the International Consumer Protection Act of 
2003. The draft legislation that Chairman Stearns and I have 
circulated grants the Federal Trade Commission additional 
powers to combat international consumer fraud.
    The draft bill is a work in progress, and I look forward to 
hearing the expert testimony from today's witnesses; their 
thoughts on the draft bill, and the problems that the bill aims 
to address.
    The chairman itemized the ways in which the FTC's 
``Consumer Sentinel'' found consumer fraud as this growing 
problem, and the documentation, and so I won't repeat that. But 
clearly cross-border fraud is a serious problem that Congress 
needs to address.
    And he also raised that some of you may have and that we 
have had as well, that the legislation that grants the FTC 
greater powers to share since it is sensitive information with 
foreign governments about individuals and businesses, that it 
raises some difficult questions for the subcommittee and the 
Congress as a whole in striking that delicate balance between 
protecting civil liberties and fighting consumer fraud.
    We need to ensure that we don't give the FTC a license to 
violate individual rights, but still provide the tools that it 
needs to protect consumers. We fought hard throughout our 
history to maintain a free and open society, and clearly we 
don't want to sacrifice those freedoms in the name of combating 
consumer fraud.
    And finally I want to sincerely thank Chairman Stearns and 
Chairman Tauzin for working with me in a bipartisan fashion on 
this important legislation. I really commend them for being 
inclusive and I hope that we will be able to introduce and pass 
a bipartisan bill in the very near future. Thank you.
    Mr. Stearns. I thank my colleague. The gentlemen from 
Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and thank you, Mr. 
Muris, for joining us today on an issue that is very, very 
important. We just came out of a conference meeting that was 
somewhat contentious on many issues, and some of it that we 
hope you will be addressing through the FTC and the whole issue 
of how do we continue to open markets and go into international 
trade, and use all this new technology, and make sure that our 
consumers are protected.
    And so we look forward to the hearing, and I appreciate 
your attendance, and Mr. Chairman, I yield back my time.
    Mr. Stearns. I thank the gentleman.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman, for holding this hearing. It is important 
that legislation be thoroughly discussed in a realm that includes those 
significantly impacted by a bill and you have given us the valuable 
opportunity to do just that.
    I would also like to thank the distinguished panelists that have 
joined us today. Your testimony will shed valuable light on the 
legislation before us and bring American consumers one step closer to 
the protections they need and deserve.
    The marketplace continues to evolve as technologies are forever 
improving and affording consumers and businesses alike with more 
opportunity than ever before. Unfortunately, as with anything, these 
opportunities are not always seized in the name of all that is right 
and just. Criminals are as likely, if not more so, to demonstrate the 
phenomenal capabilities available today at the expense of people's 
hard-earned money and assets.
    We must ensure that an adequate counter-force is not just keeping 
up or being maintained, but staying ahead of the criminal game. The 
Federal Trade Commission must be given the power, authority and 
resources necessary to do just that. The Federal Trade Commission has 
proven to be enormously valuable in regulating how business is done and 
protecting the rights and interests of all parties involved. We must 
thoroughly, consistently and continuously examine what the FTC is able 
to do and how it might be more effective in its pursuits.
    There are numerous scam artists out there looking to make a buck 
without having to work for it. The people of Wyoming--as with people in 
every state--will benefit greatly by the protections and powers 
extended within the proposal before us today. We must take swift 
action.
    Again, I thank the panelists and am certain that today's testimony 
will further illuminate the path that this legislation must take in a 
timely manner.
    I thank the Chairman again and yield back the remainder of my time.
                                 ______
                                 
 Prepared Statement of Hon. C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho
    Mr. Chairman, I appreciate the opportunity you have provided for 
this subcommittee to review and examine this legislation. I do see the 
value in removing some barriers that currently prohibit the exchange of 
information between domestic and foreign agencies working to protect 
consumers from fraud. Yet, I have real concerns with some of the 
extensions of power this bill seems to give the Federal Trade 
Commission. I think there are some legitimate civil rights issues the 
committee must resolve before we move legislation.
    In addition to providing an unprecedented means of communications 
and business opportunities, E-commerce has generated a number of 
complex issues relating to responsibility, enforcement, and the 
jurisdiction of laws regulating the Internet and other technological 
means of doing business. There is no doubt American consumers deserve 
the best efforts of the FTC in their pursuit to inform and warn the 
public of possible scams and in the investigation of those operations 
that violate the law. However, in reading certain provisions of the 
International Consumer Protection Act draft bill, I became concerned 
that this proposal may be inadvertently circumventing the sovereignty 
of our nation and the rights of our law abiding citizens. I am uneasy 
when this discussion reaches the point of asking U.S. agencies or 
commissions to enforce the laws of other nations on our citizenry, or 
visa versa.
    Before moving forward on this issue, we must clarify that U.S. 
citizens will only be accountable to U.S. law. I cannot in good 
conscious support something that could require my U.S. law-abiding 
constituents to comply with the laws of foreign lands as a condition of 
doing business on the Internet.
    Furthermore, I find the current language concerning the definition 
of the adverse results test unacceptable. The Federal Trade Commission 
cannot be permitted the opportunity to circumvent our legal system by 
casting internal determinations when applying an adverse result test in 
order to gain access to delayed notification rights.
    While these are no doubt serious issues, I look forward to working 
with the commission on finding appropriate and constitutional ways to 
provide Americans increased protection from international scams and 
frauds perpetrated via the Internet and other technological means.
                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    Thank you Chairman Stearns and Ranking Member Schakowsky for 
holding this hearing on the International Consumer Protection Act.
    I understand that this legislation is a high priority for the 
Federal Trade Commission, and particularly for Chairman Muris and 
Commissioner Thompson.
    So I appreciate the Chairman's willingness to appear before us 
today to lay out the FTC's proposals to fight deceptive practices that 
have an international scope and are increasingly affecting U.S. 
consumers.
    It's no surprise that international consumer protection is becoming 
an issue of increasing relevance to this subcommittee.
    Globalization, increased world trade and the proliferation of 
Internet-based services and commerce has dramatically changed the world 
in which we live.
    Many of these changes have been for the better; however, they have 
also created fertile ground for fraudulent activities.
    Consequently, the act of fraud itself has taken on a global nature, 
thus making it increasingly difficult for law enforcement and the FTC 
to find and prosecute perpetrators of fraud.
    We've learned from various consumer complaints that international 
fraud can take many forms.
    Identity theft and financial scams are two extreme examples, but 
telemarketing and spam are issues that I'd bet most of us in this room 
have had to contend with.
    Congresswoman Heather Wilson and I have dropped a good, consumer-
friendly bill that would address our spam problem by giving consumers 
and the FTC the tools they need to push back against the spammers.
    And I hope that this bill we're considering today will give the FTC 
even more ammunition in the fight against spam.
    International problems require international solutions, and the 
only way to effectively fight cross-border fraud is through 
international cooperation.
    While the FTC's mission heretofore has been primarily domestic in 
nature, the protection of U.S. consumers against fraud and other 
deceptive practice now dictates that the FTC adopt an international 
scope.
    To that end, we need to provide the FTC with expanded investigatory 
and enforcement capabilities, and I applaud our Chairman, Ranking 
Member and the FTC for tackling this issue head on.
    In our efforts to fight cross-border fraud, however, I do want to 
make sure that the policies we enact protect the privacy and civil 
liberties of all involved parties.
    Our witnesses have indicated that several provisions of this bill 
could raise 4th Amendment questions.
    These are troubling concerns that must be addressed before we move 
forward with this legislation.
    Given the bi-partisan nature of the negotiations thus far, however, 
I am confident that our subcommittee can produce a bill that will 
effectively protect U.S. consumers from international fraud while also 
preserving constitutional rights and privileges.
    Thank you to all of our witnesses for appearing before us today.
    I look forward to your testimony.
    And with that, Mr. Chairman, I yield back the balance of my time.

    Mr. Stearns. We welcome the Chairman of the Federal Trade 
Commission, the Honorable Timothy Muris. We welcome your 
opening statement.

  STATEMENT OF HON. TIMOTHY J. MURIS, CHAIRMAN, FEDERAL TRADE 
                           COMMISSION

    Mr. Muris. Thank you very much. I am pleased to appear to 
testify on the International Consumer Protection Act of 2003. 
Mr. Chairman, and Ranking Member Schakowsky, I personally want 
to thank you and your staffs for the many hours of hard work 
that you have devoted to developing this legislation.
    I know that some of these issues are complex and we really 
appreciate you working with us. I do understand that it is a 
work in progress. We have listened to the concerns that many 
people have raised. We think that we can work with you and make 
changes that would satisfy those concerns, and still allow us 
to address this very important issue.
    As you know, the FTC is the agency that is primarily 
responsible in the Federal Government for protecting American 
consumers. There are limitations on our ability to fight cross-
border fraud that make it increasingly difficult to meet this 
responsibility.
    Today, cross-border fraud operators victimize large numbers 
of Americans and the problem is growing. For example, 
fraudulent Canadian telemarketers victimize American consumers 
and hide their ill-gotten gains in foreign bank accounts.
    Website operators victimize consumers worldwide and remove 
their sites when they learn they are being investigated. 
Deceptive spammers can easily hide their identity, disguise the 
electronic path of their e-mail messages, and send messages 
from anywhere in the world to anyone in the world.
    Not surprisingly, this is reflected in our complaint data 
base that you mentioned. We have a chart here to your right 
which shows that there were more than 30,000 complaints 
collected in ``Consumer Sentinel'' that involved either 
domestic consumers complaining about foreign businesses, or 
foreign consumers complaining about domestic businesses.
    About 80 percent of these cross-border complaints were U.S. 
consumers complaining about foreign businesses. With these 
complaints, we have had a corresponding increase in our cases 
involving cross-border fraud.
    Last year, for example, we brought about 20 new Federal 
District Court lawsuits involving foreign defendants or foreign 
consumers. We have continued to litigate and settle dozens of 
cases involving fraud and deception that operate cross-border.
    Indeed, today we are announcing settlements in two cross-
border lottery cases that will return almost $2 million for 
consumer redress. An increasing number of these cross-border 
cases involve allegedly deceptive spam, which is often cross-
border in nature.
    We have found that the path from a fraudulent spammer to a 
consumer's in-box typically crosses at least one international 
border, and usually several. In other words, this legislation 
is anti-spam legislation, and it is very important for us in 
the battle against spam.
    We are in the process of implementing a plan that we 
announced last year, which is a five point plan to combat 
cross-border fraud. It includes working with multilateral 
organizations, enforcement task forces, public/private 
partnerships, and technical assistance groups to developing 
countries.
    My colleague, Mozelle Thompson, is the head of the OECD 
Consumer Protection Committee. The OECD recently has 
promulgated very important guidelines to deal with the cross-
border fraud problem.
    Quite simply, we need new legislative authority. The 
attraction to deal cross-border if you are a fraudster is just 
overwhelming. One reason is that you can target a larger 
market.
    Another reason is that by operating cross-border, you make 
it more difficult for the relevant law enforcement authorities 
to deal with you. Further, you can move your money outside the 
United States, so that we need a foreign action to collect on a 
judgment in the United States.
    This is time consuming, expensive, and sometimes we can't 
do it at all. The legislation that we have proposed, and is 
reflected in the draft bill, has four main goals. The first is 
to strengthen our ability to share information with, and 
provide investigative assistance to our foreign counterparts, 
who often are investigating the same targets that we are.
    Second, we seek to improve our ability to gather 
information by sharing confidential treatment of information we 
receive from certain sources. Without such assurances, this 
valuable information in many cases, we just are not going to 
get it.
    Third, we seek to improve our ability to obtain consumer 
redress in cross-border cases by clarifying our authority to 
act in such cases, and expanding our ability to use foreign 
counsel to pursue assets off-shore.
    Finally, we seek to strengthen our international 
cooperative relationships by obtaining authority to conduct 
staff exchanges, and to provide financial support for certain 
joint products.
    The Congress already has provided tools to cooperate 
internationally to the SEC, to the CFTC, to the FTC and the 
Antitrust Division for Antitrust, and what we are seeking is 
similar authority for cross-border fraud.
    We have consulted widely on this legislation, both within 
and outside the government, and with the Congress, and we are 
committed to working closely with you to make it an appropriate 
bill to achieve the balance that you all mentioned this 
morning.
    We greatly appreciate the opportunity and your help in this 
important issue, and we look forward to continuing to work 
together.
    [The prepared statement of Hon. Timothy J. Muris follows:]
 Prepared Statement of Hon. Timothy J. Muris, Federal Trade Commission
    Mr. Chairman, I am pleased to appear before the Subcommittee today 
to provide information on the challenge of cross-border fraud and the 
efforts of the Federal Trade Commission (``Commission'' or ``FTC'') to 
address this growing problem.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ The written statement represents the views of the Federal Trade 
Commission. My oral presentation and responses are my own and do not 
necessarily reflect the views of the Commission or of any other 
Commissioner.
---------------------------------------------------------------------------
    The FTC is the federal government's principal consumer protection 
agency, with a mandate to prohibit unfair or deceptive acts or 
practices and to maintain vigorous competition in the 
marketplace.<SUP>2</SUP> The Federal Trade Commission Act authorizes 
the Commission to file federal district court actions, which typically 
seek preliminary and permanent injunctions to halt deceptive activity 
and seek to provide redress for injured consumers.<SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ 15 U.S.C.  45(a).
    \3\ See 15 U.S.C.  53(b). The FTC also is authorized to initiate 
administrative proceedings to enforce the Federal Trade Commission Act. 
See 15 U.S.C.  45(b).
---------------------------------------------------------------------------
    An increasing number of these actions involve cross-border fraud 
and deception, which adversely affect American consumers and 
businesses. These actions often involve foreign businesses and 
individuals, consumers, assets, or evidence. Similarly, an increasing 
number of consumer complaints collected in our Consumer Sentinel 
database maintained by the Commission involve either domestic consumers 
complaining about foreign businesses or foreign consumers complaining 
about domestic businesses.<SUP>4</SUP> Thus, we are devoting additional 
resources to fighting cross-border fraud within the existing 
legislative framework and are proposing certain legislative changes 
that would give us additional tools to help address the problem of 
cross-border fraud. Most of our proposed changes are based on authority 
Congress has already given to securities, antitrust, and banking 
enforcers in the international context.
---------------------------------------------------------------------------
    \4\ Consumer Sentinel is a database of consumer fraud complaints 
maintained by the FTC. Complaints are entered into the database from 
many sources and are accessible to more than 700 law enforcement 
agencies in the United States, Canada, and Australia. The database 
currently contains over one million complaints. See www.consumer.gov/
sentinel.
---------------------------------------------------------------------------
    Today's testimony begins by describing the growth of cross-border 
fraud and the problems associated with this growth. It then discusses 
our efforts within the existing legislative framework to combat cross-
border fraud. Finally, it examines the need for additional legislation 
to help us fight cross-border fraud and describes our legislative 
recommendations.
                  i. the problem of cross-border fraud
    Today, cross-border fraud operators are victimizing American 
consumers to an extent unknown just a few years ago, and the problem is 
growing worse. Globalization of trade, improvements in the 
international telephone system, and the advent of the Internet have 
given consumers direct access to foreign sellers. Today, there are 
satellite networks broadcasting advertisements around the world, with 
operators waiting to take orders in many languages. Telemarketers 
routinely call U.S. consumers from Canada. Most significantly, 
electronic commerce in many instances is blurring the effect of 
national borders.
    Cross-border commerce creates new opportunities for consumers and 
businesses, but it also poses new challenges to consumer confidence and 
to law enforcement. Consumers cannot assess the credibility of many 
merchants located across the globe as easily as they could with local 
vendors, and law enforcement cannot protect consumers as easily from 
fraud operators who, effectively, may be out of reach.
    Using Internet and long-distance telephone technology, fraud 
operators can strike quickly on a global scale, victimize thousands of 
consumers in a short time, and disappear nearly without a trace--along 
with their ill-gotten gains. For example, fraudulent Canadian 
telemarketers victimize American consumers and hide their ill-gotten 
gains in foreign bank accounts. Website operators victimize consumers 
worldwide and take down their sites when they learn they are being 
investigated by law enforcement. And deceptive spammers can easily hide 
their identity, forge the electronic path of their email messages, and 
send messages from anywhere in the world to anyone in the world.
A. Complaint Statistics
    Not surprisingly, an increasing number of complaints collected in 
Consumer Sentinel involve international transactions. In 2002, 14 
percent of the complaints collected in Consumer Sentinel involved 
either domestic consumers complaining about foreign businesses or 
foreign consumers complaining about domestic businesses, as compared 
with less than 1 percent in 1995.<SUP>5</SUP> Seventy-nine percent of 
these complaints in 2002 involved U.S. consumers complaining about 
foreign businesses.<SUP>6</SUP> The complaints include more than 24,000 
complaints by U.S. consumers against foreign companies, complaining 
about transactions involving more than $72 million.<SUP>7</SUP> The 
cross-border fraud schemes U.S. consumers complained about most often 
in 2002 involved foreign money offers, advance fee loans, prizes, 
sweepstakes gifts, and internet auctions.<SUP>8</SUP> The obstacles we 
face in fighting cross-border fraud leave U.S. consumers particularly 
vulnerable to such scams.
---------------------------------------------------------------------------
    \5\ See FTC Report, Cross-Border Fraud Trends, January-December 
2002 4 (Feb. 19, 2003), available at <http://www.ftc.gov/bcp/conline/
edcams/crossborder/PDFs/CrossBorderCY2002.pdf>.
    \6\ Id. at 9.
    \7\ Id. at 13.
    \8\ Id. at 10.
---------------------------------------------------------------------------
B. FTC Cross-Border Cases
    In the past several years, there has been a corresponding increase 
in FTC cases with a cross-border component. These cases often target 
foreign defendants. The FTC has brought cases against defendants in 
Australia,<SUP>9</SUP> Canada,<SUP>10</SUP> Hong Kong,<SUP>11</SUP> 
Spain,<SUP>12</SUP> Switzerland,<SUP>13</SUP> and the United 
Kingdom.<SUP>14</SUP> Many of the cases have involved the transfer of 
assets to such offshore locations as the Bahamas,<SUP>15</SUP> the 
Cayman Islands,<SUP>16</SUP> the Cook Islands,<SUP>17</SUP> and 
Vanuatu.<SUP>18</SUP> The cases also frequently involve evidence 
located in other countries, including Canada, the Netherlands, France, 
Germany, Mexico, and Spain.<SUP>19</SUP> Other cases involve 
individuals and businesses based in the U.S. that target both domestic 
and foreign consumers.<SUP>20</SUP>
---------------------------------------------------------------------------
    \9\ FTC v. Pereira, Civ. Action No. 1:99 CV 01367 (E.D. Va. filed 
Sept. 14, 1999), available at <http://www.ftc.gov/os/1999/9909>.
    \10\ E.g., FTC v. 1492828 Ontario Inc., d/b/a First Capital 
Consumers Group, Civ. Action No. 02C 7456 (N.D. Ill. filed Oct. 17, 
2002), available at <http://www.ftc.gov/opa/2002/10/firstcap.htm>. A 
complete list of all cases that the FTC has brought against Canadian 
defendants between 1997-2002 is contained in Mass-Marketing Fraud: A 
Report to the Attorney General of the United States and the Solicitor 
General of Canada (May 2003), available at <http://www.usdoj.gov/opa/
pr/2003/May/remmffinal.pdf>.
    \11\ FTC v. Hudson Berkeley, Civ. Action No. CV-S-02-0649-PMP-RJJ 
(D. Nev. filed May 7, 2002), available at <http://www.ftc.gov/opa/2002/
05/projectabsurd.htm>.
    \12\ FTC v. BTV Indus., Civ. Action No. CV-5-02-0437-LRH-PAL (D. 
Nev. filed Mar. 27, 2002), available at <http://www.ftc.gov/opa/2002/
04/btv.htm>.
    \13\ FTC v. Dr. Clark Research Ass'n, Civ. Action No. 1:03CV0054 
(N.D. Ohio filed Jan. 8, 2003), available at <http://www.ftc.gov/opa/
2003/01/drclark.htm>.
    \14\ FTC v. TLD Networks Ltd., Civ. Action No. 00-CV-906 (N.D. Ill. 
filed Feb. 28, 2002), available at <http://www.ftc.gov/opa/2002/03/
tld.htm>.
    \15\ FTC v. SlimAmerica, Civ. Action No. 97-6072 (S.D. Fla. filed 
Jan. 27, 1997), available at <http://www.ftc.gov/opa/1997/02/slim.htm>; 
FTC v. Online Communications, Civ. Action No. CV-S-96-00055-LDG (RLH) 
(D. Nev. filed Jan. 23, 1996), available at <http://www.ftc.gov/opa/
1996/08/road2.htm>.
    \16\ FTC v. J.K. Publications, Inc., Civ. Action No. CV 99-0044 ABC 
(AJWx) (C.D. Cal. filed Jan. 5, 1999), available at <http://
www.ftc.gov/opa/1999/01/netfill.htm>.
    \17\ FTC v. Affordable Media, LLC, Civ. Action No. CV-S-98-669-LDG 
(RLH) (D. Nev. filed Apr. 23, 1998).
    \18\ E.g., FTC v. J.K. Publications, Inc., Civ. Action No. CV 99-
0044 ABC (AJWx) (C.D. Cal. filed Jan. 5, 1999), available at <http://
www.ftc.gov/opa/1999/01/netfill.htm>.
    \19\ E.g., FTC v. Electronic Prods. Distrib., LLC, Civ. Action No. 
02-CV-888H (AJB) S.D. Calif. filed May 7, 2002), available at <http://
www.ftc.gov/opa/2002/05/projectabsurd.htm>; FTC v. Assail, Inc., Civ. 
A. No. W03CA007 (W.D. Tex. filed Jan. 9, 2003), available at <http://
www.ftc.gov/opa/2003/02/assail.htm>; FTC v. 1492828 Ontario Inc., d/b/a 
First Capital Consumers Group, Civ. Action No. 02C 7456 (N.D. Ill. 
filed Oct. 17, 2002), available at <http://www.ftc.gov/opa/2002/10/
firstcap.htm>; FTC v. CSCT, Inc., Civ. Action No. 03 C 00880 (N.D. Ill. 
filed Feb. 6, 2003), available at <http://www.ftc.gov/opa/2003/02/
csct.htm>; FTC v. Zuccarini, Civ. Action No. 02C 7456.C.A. No. 01-CV-
4854 (E.D. Pa. filed Sept. 25, 2001), available at <http://www.ftc.gov/
opa/2001/10/cupcake.htm>; FTC v. BTV Indus., Civ. Action No. CV-5-02-
0437-LRH-PAL (D. Nev. filed Mar. 27, 2002), available at <http://
www.ftc.gov/opa/2002/04/btv.htm>.
    \20\ E.g., FTC v. Skybiz.com Inc., Civ. Action No. 01-CV-096 (N.D. 
Okla. filed May 30, 2001), available at <http://www.ftc.gov/opa/2001/
06/sky.htm>.
---------------------------------------------------------------------------
    An increasing number of these cases involve allegedly deceptive 
unsolicited commercial e-mail, or spam, which is often cross-border in 
nature.<SUP>21</SUP> Indeed, the Commission's law enforcement 
experience shows that ``the path from a fraudulent spammer to a 
consumer's in-box typically crosses at least one international border 
and usually several.'' <SUP>22</SUP>
---------------------------------------------------------------------------
    \21\ To date, the FTC has brought over 56 enforcement actions 
involving deceptive or fraudulent spam.
    \22\ Prepared Statement of the Federal Trade Commission, Spam 
(Unsolicited Commercial E-Mail), Before the Senate Committee on 
Commerce, Science and Transportation, 108th Cong. (May 21, 2003). This 
conclusion is also supported by the FTC's recent initiative to educate 
businesses about ``open relays.'' Open relays allow third parties to 
route their e-mail through servers of other organizations, thereby 
disguising the real origin of the e-mail. The FTC initiative, conducted 
in partnership with 16 other agencies in four countries, found that a 
significant portion of the open relays identified were located outside 
the United States, in countries such as China, Korea, Japan, Italy, 
Poland, Brazil, Germany, Taiwan, Mexico, Great Britain, Chile, France, 
Argentina, India, Spain, and Canada.
---------------------------------------------------------------------------
C. Problems Faced by Law Enforcement
    Despite the FTC's vigorous law enforcement activities, cross-border 
fraud operators continue to use national borders to facilitate their 
schemes. Those engaged in cross-border fraud enjoy more attractive 
revenue prospects and face a lower likelihood of prosecution than 
domestic scam artists because:

 They can target a larger market.
 Evidence of their scams is often spread out in different 
        jurisdictions, and it is difficult for the relevant authorities 
        to share that evidence. Indeed, many U.S.-based defendants 
        purposefully use foreign third parties to perpetrate their 
        scams in an attempt to evade U.S. law enforcement 
        authorities.<SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ For example, in FTC v. Zuccarini, Civ. Action No. 01-CV-4854 
(E.D. Pa. filed Sept. 25, 2001), available at <http://www.ftc.gov/opa/
2001/10/cupcake.htm>, the defendant had initially perpetrated his 
Internet scheme using U.S.-based Internet Service Providers (ISPs) and 
domain registrars. When he found out that the FTC was investigating 
him, he fled the country and continued to perpetrate his scheme through 
ISPs in the Netherlands and domain registrars in France, Germany, and 
Spain.
---------------------------------------------------------------------------
 It is sometimes unclear which countries have legal jurisdiction to 
        act.<SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ The FTC recently faced this situation with respect to a matter 
that a foreign consumer protection agency referred to us concerning a 
scheme run by a U.S. company in various parts of Europe. Because of its 
enabling legislation, the referring agency could not bring an action 
against a U.S. company. Upon investigation, FTC staff learned that no 
U.S. consumers were injured by the scheme and neither the 
misrepresentations nor other conduct material to the fraud occurred in 
the United States. Given that the jurisdictional nexus to the U.S. was 
unclear in this case, as well as the practical problems that litigation 
would have posed, FTC staff decided not to pursue the case. By 
structuring its operations in this manner, the entity evaded law 
enforcement authorities on both sides of the Atlantic.
---------------------------------------------------------------------------
 U.S. enforcers have extremely limited ability to impose conduct 
        remedies on foreign defendants because most courts will not 
        enforce injunctive orders issued in other 
        countries.<SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ FTC v. Verity International illustrates the limits of imposing 
conduct remedies on foreign defendants. 140 F. Supp. 2d 313, 318 
(S.D.N.Y. 2001). In that case, the individual foreign defendants failed 
to comply with the asset-reporting requirements of a preliminary 
injunction obtained by the FTC. The U.S. court held them in contempt. 
In arguing against the motion for contempt, defendants pointed out that 
the contempt order would be futile because they were unlikely to enter 
the United States while the contempt matter was outstanding. The court 
acknowledged that defendants could avoid arrest by staying outside of 
the United States, but granted the motion for contempt, suggesting that 
preventing the defendants from entering the United States was an 
appropriate measure in this case. This case illustrates the limits of a 
contempt order on foreign defendants--as a practical matter, a foreign 
defendant can generally avoid sanctions for contempt by staying outside 
the United States.
---------------------------------------------------------------------------
 The fraud operators can move money offshore, thus necessitating a 
        foreign action to enforce a U.S. court judgment. This is time-
        consuming, expensive, and, in many cases, futile, as many 
        countries do not enforce U.S. court judgments obtained by 
        government agencies.<SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ This problem has arisen in many FTC-related cases. For 
example, a receiver appointed in an FTC matter recently faced 
difficulties in obtaining relief from an Australian court. In Evans v. 
Citibank Limited & others, Equity Division Proceedings No. 4999 of 1999 
(Sup. Ct. New South Wales), the receiver was not seeking direct 
enforcement of an FTC judgment, but instead was attempting to use the 
FTC's judgment as a basis for ordering a third-party bank to transfer 
certain assets to the control of the receiver under a constructive 
trust theory. The court held that the receiver's claims were ``penal'' 
in nature and denied the receiver's claim. This matter is currently on 
appeal. Similarly, United States v. Asiatrust Limited, Plaint No. 57/
1999, was a case challenging the defendants' transfer of funds to a 
Cook Islands trust to defeat the FTC's judgment in FTC v. Affordable 
Media, LLC, Civ. Action No. CV-S-98-669-LDG (RLH) (D. Nev. filed Apr. 
23, 1998). The High Court of the Cook Islands construed the case (which 
was pled as a new action) as one involving the enforcement of a penal 
law. The Cook Islands court dismissed the United States' action holding 
that the FTC's action was one to enforce ``regulatory rights and 
powers.'' ``They are or have a flavour of punishment and I conclude 
that these are at least in part, penal provisions, and fall within the 
relevant principle. It is also a public law which is sought to be 
enforced by the state or the sovereign alone for regulatory purposes 
and is one which ought not be enforced here.'' (4 Dec. 2001 Judgment at 
8). The matter ultimately was resolved by settlement and the defendants 
repatriated their assets to the FTC pursuant to a stipulated judgment. 
See also Impediments to Digital Trade Before the House Subcommittee on 
Commerce, Trade, and Consumer Protection of the Committee on Energy and 
Commerce, 107th Cong. (2001) (statement of Jeff Kovar, Assistant Legal 
Advisor for Private International Law, Department of State) (``Most 
foreign judgments are already recognized and enforced in the U.S. under 
state law, but most of our trading partners do not usually grant the 
same treatment to U.S. judgments.'').
---------------------------------------------------------------------------
 Enforcers have less incentive to pursue fraud operators who victimize 
        consumers outside their jurisdictions but leave local consumers 
        alone.
    1The legislative recommendations that we make today will help to 
minimize some of these burdens, as further described below. In other 
cases, the burdens result from other countries' practices. We believe 
that our proposed legislation, if passed, will encourage greater 
reciprocity, providing an incentive for these countries to lift 
existing barriers to combating cross-border fraud.
D. Importance of Pursuing Cross-Border Fraud Operators
    Pursuing those who victimize U.S. consumers from abroad is 
important to protect consumers from the substantial harm foreign fraud 
operators can cause.<SUP>27</SUP> Moreover, consumers' concerns about 
fraud and deception in the global marketplace could undermine their 
confidence in cross-border transactions and could lead them to conclude 
that they should only do business with local merchants. Unaddressed, 
these consumer concerns could hurt legitimate businesses by shrinking 
the market for their products and services. If the promise of the 
global marketplace is to be fully realized, governments must assure 
consumers that they are working to keep markets free from fraud and 
deception.
---------------------------------------------------------------------------
    \27\ Prepared Statement of the Federal Trade Commission, Cross-
Border Fraud: Improving Transnational Law Enforcement Cooperation: 
Hearing Before the Permanent Subcommittee on Investigations of the 
Senate Committee on Government Affairs, 107th Cong. (June 15, 2001).
---------------------------------------------------------------------------
    Pursuing U.S. businesses who victimize foreign consumers is also 
critical. Stopping U.S.-based cross-border fraud and deception will 
help protect legitimate U.S. businesses from dishonest competitors, as 
well as the reputation of the U.S. marketplace. Cooperation is also 
necessary to engender reciprocity: FTC action to protect foreign 
consumers from fraud and deception emanating from U.S. businesses 
increases the willingness of foreign governments to cooperate in 
protecting U.S. consumers from fraud operators in their countries.
    ii. the ftc's efforts to fight cross-border fraud and deception
    Despite the enforcement difficulties outlined above, the FTC has 
continued to fight cross-border fraud and deception within the existing 
legislative framework, through its enforcement and policymaking 
initiatives. On the enforcement front, in 2002, the FTC brought 
approximately 20 new federal district court lawsuits involving one or 
more foreign defendants or foreign consumers, and continued to litigate 
and settle dozens of other cases involving fraud and deception that 
operate across national borders. In the first quarter of 2003 alone, 
the FTC filed new cases involving advance-fee credit cards peddled by 
Canadian telemarketers,<SUP>28</SUP> allegedly bogus international 
driving licenses advertised through spam email by defendants in Denmark 
<SUP>29</SUP> and other foreign countries including Israel, the 
Bahamas, and Romania,<SUP>30</SUP> and products and programs sold over 
the Internet by defendants based in Switzerland,<SUP>31</SUP> Canada, 
the U.K., and Mexico,<SUP>32</SUP> that allegedly falsely claim to cure 
cancer, AIDS, and other serious diseases. Although we were successful 
in these cases, we encountered difficulties, as outlined above.
---------------------------------------------------------------------------
    \28\ FTC v. STF Group Inc., Civ. A. No. 02 C 0977 (N.D. Ill. filed 
Feb. 10, 2003), available at <http://www.ftc.gov/opa/2003/02/
medplan.htm>; FTC v. Assail, Inc., Civ. A. No. W03CA007 (W.D. Tex. 
filed Jan. 9, 2003), available at <http://www.ftc.gov/opa/2003/02/
assail.htm>.
    \29\ FTC v. Carlton Press, Inc., Civ. A. No. 03-CV-0226-RLC 
(S.D.N.Y. filed Jan. 10, 2003), available at <http://www.ftc.gov/opa/
2003/01/idpfinal.htm>.
    \30\ FTC v. Mountain View Sys., Ltd., Civ. A. No. 1:03-CV-OOO21-RMC 
(D.D.C. filed Jan. 7, 2003), available at <http://www.ftc.gov/opa/2003/
02/fyi0314.htm>.
    \31\ FTC v. Dr. Clark Research Ass'n, Civ. A. No. 1:03CV0054 (N.D. 
Ohio filed Jan. 8, 2003), available at <http://www.ftc.gov/opa/2003/01/
drclark.htm>.
    \32\ FTC v. CSCT, Inc., Civ. Action No. 03 C 00880 (N.D. Ill. filed 
Feb. 6, 2003), available at <http://www.ftc.gov/opa/2003/02/csct.htm>.
---------------------------------------------------------------------------
    In addition to its ongoing work on investigations and cases, in 
October 2002, FTC Chairman Timothy J. Muris unveiled a Five-Point Plan 
for Fighting Cross-Border Fraud.<SUP>33</SUP> The Plan recognizes the 
importance of initiatives on both the international and domestic fronts 
and the need for action by both the public and private sectors. 
Highlights of the Plan follow:
---------------------------------------------------------------------------
    \33\ See Timothy J. Muris, ``The Interface of Competition and 
Consumer Protection,'' Prepared Remarks at the Fordham Corporate Law 
Institute's Twenty-Ninth Annual Conference on International Antitrust 
Law and Policy (Oct. 31, 2002), available at http://www.ftc.gov/
speeches/muris/021031fordham.pdf.
---------------------------------------------------------------------------
    Developing an OECD Recommendation on Cross-Border Fraud: FTC 
Commissioner Mozelle Thompson has led the United States delegation to 
the Organisation for Economic Cooperation and Development's Committee 
on Consumer Policy since 1998 and has chaired the Committee since 2002. 
Under his leadership, the OECD issued Guidelines for Protecting 
Consumers from Fraudulent and Deceptive Commercial Practices Across 
Borders in June 2003. The Guidelines recognize that combating fraud and 
deception is an important priority for government consumer protection 
agencies. They represent the consensus of 30 countries on the 
importance of international cooperation to combat fraudulent and 
deceptive commercial practices. The Guidelines also provide impetus for 
legislative and policy reform in OECD countries for combating such 
practices.
    Public-Private Partnerships to Combat Cross-Border Fraud: The FTC 
has issued a call to legitimate industry to help fight cross-border 
fraud, which hurts consumers as well as legitimate businesses. In many 
cases, domestic and foreign third parties, such as credit card issuers 
and networks, banks, and Internet service providers, can assist law 
enforcement by providing information about foreign fraud operators. 
Domestic third parties may be able to suspend domain names, telephone 
services, mailing services, or financial services to foreign fraud 
operators, who we may not be able to reach through court orders. 
Earlier this year, the FTC held a public workshop to explore these 
issues.<SUP>34</SUP> We are continuing to work with the private sector 
to follow up on some of the ideas discussed at the workshop, including 
better sharing of information between the private sector and the FTC. 
Discussions at the workshop also highlighted obstacles to public-
private sector cooperation to combat cross-border fraud, which some of 
our legislative proposals seek to overcome, as explained further below.
---------------------------------------------------------------------------
    \34\ See <http://www.ftc.gov/bcp/workshops/crossborder/index.html>.
---------------------------------------------------------------------------
    Technical Assistance: The FTC wants to ensure that developing 
countries do not become havens for fraud. Therefore, we have conducted 
training missions on consumer protection issues in various developing 
countries, in cooperation with and funded by the U.S. Agency for 
International Development. Last year, we conducted training sessions 
for consumer protection authorities from 13 Eastern European countries. 
This year, we are conducting training sessions in Peru, Romania, and 
the Ukraine.
    Developing and strengthening bilateral and multilateral 
relationships: The FTC has undertaken several activities in this area:

 The FTC has signed consumer protection cooperation agreements with 
        Canada, the United Kingdom, and Australia, that have enhanced 
        our cooperation with these countries.<SUP>35</SUP> We are 
        continuing to expand our law enforcement activities with these 
        countries.
---------------------------------------------------------------------------
    \35\ See Agreement Between the Government of the United States of 
America and the Government of Canada Regarding the Application of their 
Competition and Deceptive Marketing Practices Laws, Trade Reg. Rep. 
(CCH)  13,503 (1995), available at <http://www.usdoj.gov/atr/public/
international/docs/uscan721.htm>; Agreement Between the Federal Trade 
Commission of the United States of America and the Australian 
Competition & Consumer Commission On the Mutual Enforcement Assistance 
in Consumer Protection Matters (July 20, 1999), available at <http://
www.ftc.gov/opa/2000/07/usaccc.htm>; Memorandum Of Understanding On 
Mutual Enforcement Assistance In Consumer Protection Matters Between 
The Federal Trade Commission Of The United States of America And Her 
Majesty's Secretary of State for Trade And Industry And The Director 
General Of Fair Trading In The United Kingdom (Oct. 31, 2000), 
available at <http://www.ftc.gov/opa/2000/10/ukimsn.htm>.
---------------------------------------------------------------------------
 In Canada, the Commission participates in two consumer protection 
        enforcement task forces: Project Emptor with British Columbia 
        authorities, and the Toronto Strategic Partnership with a wide 
        variety of Canadian and U.S. authorities.<SUP>36</SUP> In the 
        past year, the FTC has announced numerous joint law enforcement 
        actions taken with the assistance of these task forces, 
        including actions involving credit card loss 
        protection,<SUP>37</SUP> lottery/prize scams,<SUP>38</SUP> 
        advance-fee credit cards,<SUP>39</SUP> and bogus cancer 
        clinics.<SUP>40</SUP> Just this week, the FTC's Bureau of 
        Consumer Protection announced its participation in a new task 
        force with authorities from Alberta, called the Alberta 
        Partnership Against Cross-Border Fraud.
---------------------------------------------------------------------------
    \36\ For a further discussion of these task forces, see Mass-
Marketing Fraud: A Report to the Attorney General of the United States 
and the Solicitor General of Canada 31-32 (May 2003), available at 
<http://www.usdoj.gov/opa/pr/2003/May/remmffinal.pdf>; see also 
Prepared Statement of the Federal Trade Commission, Cross-Border Fraud: 
Improving Transnational Law Enforcement Cooperation: Hearing Before the 
Permanent Subcommittee on Investigations of the Senate Committee on 
Government Affairs, 107th Cong. (June 15, 2001).
    \37\ FTC v. STF Group, Civ. Action No. 03 C 0977 (N.D. Ill. filed 
Feb. 10, 2003), available at <http://www.ftc.gov/opa/2003/02/
medplan.htm>.
    \38\ FTC v. Duraisami, CV 03-01284-BJR (W.D. Wa., filed June 13, 
2003), available at <www.ftc.gov/opa/2003/07/duraisami.htm>.
    \39\ FTC v. Pacific First Benefit, LLC, Civ. Action No. 02 C 8678 
(N.D. Ill. filed Dec. 2, 2002), available at <http://www.ftc.gov/os/
caselist/ca02c8678.htm>.
    \40\ FTC v. CSCT, Inc., Civ. Action No. 03 C 00880 (N.D. Ill. filed 
Feb. 6, 2003), available at <http://www.ftc.gov/opa/2003/02/csct.htm>.
---------------------------------------------------------------------------
 The FTC is a member of the International Consumer Protection 
        Enforcement Network (ICPEN), a group of consumer protection 
        enforcement agencies from 32 countries that meets twice a year 
        to discuss cases, investigation techniques, and other 
        information. Seventeen ICPEN countries plus the OECD 
        participate in econsumer.gov, a public website where consumers 
        can file cross-border e-commerce complaints online, making them 
        accessible to law enforcement agencies in the member countries. 
        The site is available in English, French, Spanish, and 
        German.<SUP>41</SUP> Complaints from econsumer.gov can help the 
        FTC identify trends and wrongdoers on an international level.
---------------------------------------------------------------------------
    \41\ See www.econsumer.gov.
---------------------------------------------------------------------------
    In addition, the Five-Point Plan recognizes that, although there 
are certain activities the FTC can undertake within our existing 
legislative framework, new legislation is necessary to help combat the 
problem of cross-border fraud effectively. The remainder of this 
testimony focuses on the Commission's legislative recommendations.
                    iii. legislative recommendations
    Despite our successes, we face daunting challenges in the battle 
against cross-border fraud and deception. Many of these challenges 
reflect the shortcomings of a legal framework developed when consumer 
protection was almost purely a domestic concern. In the emerging global 
marketplace, that framework must be expanded to allow the FTC to act 
with effectiveness and dispatch to protect American consumers. In 
testimony to Congress during hearings on spam, the Commission also 
emphasized the need for improvements to the FTC's law enforcement 
powers to combat cross-border fraud and deception perpetrated through 
spam.<SUP>42</SUP>
---------------------------------------------------------------------------
    \42\ Prepared Statement of the Federal Trade Commission, Spam 
(Unsolicited Commercial E-Mail), Before the Senate Committee on 
Commerce, Science and Transportation, 108th Cong. (May 21, 2003).
---------------------------------------------------------------------------
    Indeed, an international consensus has developed on the need for 
countries to improve their domestic framework for fighting cross-border 
fraud and deception. The OECD Guidelines discussed above specifically 
provide that ``[m]ember countries should review their own domestic 
frameworks to identify obstacles to effective cross-border co-operation 
in the enforcement of laws designed to protect consumers against 
fraudulent and deceptive commercial practices, and should consider 
changing domestic frameworks, including, if appropriate, through 
adopting or amending national legislation to overcome these barriers.'' 
<SUP>43</SUP> The FTC's legislative proposals would implement this 
provision. Even though new legislation would not solve all of the 
problems in fighting cross-border fraud, it could go far to reduce some 
of the obstacles we face.
---------------------------------------------------------------------------
    \43\ OECD Guidelines for Protecting Consumers from Fraudulent and 
Deceptive Commercial Practices Across Borders C(2003)116 (June 11, 
2003).
---------------------------------------------------------------------------
    The FTC is proposing legislation in four areas:
 First, the FTC is seeking to strengthen its ability to cooperate with 
        its foreign counterparts, which are often investigating the 
        same targets as the FTC.
    We are currently prohibited by statute from sharing certain 
information we obtain in our investigations with our foreign 
counterparts. This prohibition can hurt U.S. consumers. For example, 
even if both the FTC and a Canadian consumer protection agency are 
investigating the same Canadian telemarketer that is defrauding U.S. 
consumers, in many cases, the FTC cannot share information it obtains 
pursuant to its main investigatory tool, the Civil Investigative Demand 
(CID), with the Canadian agency. This is true even though a Canadian 
action against the cross-border telemarketer would benefit U.S. 
consumers.<SUP>44</SUP> Similarly, in one recent case, the FTC obtained 
an order against a spammer defrauding U.S. consumers and found that the 
spammer had an affiliate that was perpetrating the same scam from a 
foreign country, targeting both U.S. and foreign consumers. The FTC 
cannot share the information it obtained pursuant to a CID with its 
foreign counterpart. The changes we are seeking would allow us to share 
such information and provide investigative assistance to certain 
foreign agencies in appropriate cases.
---------------------------------------------------------------------------
    \44\ The Commission cannot disclose ``documentary material, 
tangible things, reports or answers to questions and transcripts of 
oral testimony'' that are ``received by the Commission pursuant to 
compulsory process in an investigation'' without the consent of the 
person who submitted the information, except as specifically provided. 
15 U.S.C.  57b-2(b)(3)(C); 16 C.F.R.  4.10(d).
---------------------------------------------------------------------------
 Second, the FTC is seeking to improve its information-gathering 
        capabilities.
    The key to combating cross-border fraud successfully is the ability 
to sue without tipping off investigative targets. Once notified of FTC 
action, targets in these types of cases often disappear and move assets 
offshore, beyond the reach of U.S. courts. Thus, we are seeking to 
improve our ability to obtain more information from third parties 
without requiring advance notice to our investigative targets.
    Currently, we have no mechanism to require most third parties to 
keep CIDs confidential. Many third parties have told us that they will 
provide notice to the target before they will share information with 
us, sometimes because they believe notice may be required and sometimes 
even if such notice clearly is not required by law. Because of this 
concern, we often do not send the CIDs, thus losing a potential source 
of information in FTC investigations. We would like to be able to seek 
court orders requiring third parties to keep CIDs confidential for a 
finite period of time, which would improve our ability to gather 
information. This recommendation carefully balances law enforcement 
interests with privacy interests. In all cases in which we want a 
mandate that third parties keep CIDs confidential, we would be required 
to seek a court order, and the confidential treatment would be 
temporary. To further improve our ability to gather information, we 
also are seeking improvements in our ability to gather more information 
from federal financial regulators and foreign law enforcement agencies.
 Third, the FTC is seeking to improve its ability to obtain consumer 
        redress in cross-border cases by clarifying its authority to 
        take action in such cases, and expanding its ability to use 
        foreign counsel to pursue assets offshore.
    depriving wrongdoers of their ill-gotten gains, reducing the 
incentives to engage in fraud. To the extent that money can be returned 
to consumers, it reduces their injury and increases their confidence in 
law enforcement. Among the changes the Commission is recommending is a 
provision clarifying that the Commission has the authority to take 
action in appropriate cross-border cases and provide restitution to 
both U.S. and foreign consumers injured by cross-border fraud and 
deception. By clarifying the availability of remedies, Congress can 
protect Americans from foreign fraud operators and prevent the United 
States from becoming a haven for fraud artists targeting victims 
abroad. It also can send a strong signal to foreign courts considering 
whether to enforce an FTC money judgment when there are foreign as well 
as U.S. victims.
    Moreover, the Commission increasingly is facing significant 
obstacles in obtaining the proceeds of fraud and deception from 
defendants who have assets abroad, beyond the reach of U.S. courts. The 
Commission therefore also seeks to target more resources toward foreign 
litigation to facilitate recovery of offshore assets to benefit 
defrauded U.S. consumers.
 Finally, the FTC is seeking to strengthen its international 
        cooperative relationships by obtaining authority to conduct 
        staff exchanges and to provide financial support for certain 
        joint projects.
    The FTC participates in many international projects to combat 
cross-border fraud, including the International Consumer Protection 
Enforcement Network (ICPEN), the Mexico-U.S.-Canada Health Fraud Task 
Force (MUCH), Project Emptor with various British Columbia authorities, 
and the Strategic Partnership with various Ontario authorities. The FTC 
also consults with foreign counterparts at bilateral and multilateral 
meetings. Often, it would be helpful for the FTC to provide monetary 
assistance to support cooperative projects and meetings of such groups. 
Currently, various appropriations statutes prohibit the FTC from using 
appropriated funds to pay any expenses of a Commission, council, board 
or similar group that does not have a prior and specific statutory 
approval to receive financial support.<SUP>45</SUP> The FTC's 
legislative proposals seek to overcome this restriction.
---------------------------------------------------------------------------
    \45\ See Consolidated Appropriations Resolution, 2003, Pub. L. No. 
108-7, Division J--Treasury and General Appropriations, Title VI,  
610, 117 Stat. 11, 465 (codified at 31 U.S.C.  1345).
---------------------------------------------------------------------------
    Congress has already provided many of the tools that we seek to 
agencies such as the Securities and Exchange Commission (SEC) and 
Commodity Futures Trading Commission (CFTC). For example, thirteen 
years ago, Congress expanded the SEC's powers to cooperate with foreign 
authorities.<SUP>46</SUP> At the time, the SEC faced issues analogous 
to those faced by the FTC today regarding the growth of international 
fraud and deception in electronic commerce:
---------------------------------------------------------------------------
    \46\ Securities Acts Amendments of 1990, Pub. L. 101-550 (1990).
---------------------------------------------------------------------------
          The internationalization of the world's securities markets is 
        a trend that is likely to continue at a rapid pace. The major 
        forces driving this trend appear to be: rapid technological 
        advances in communications and computer technology [and] the 
        growing economic interdependence between the U.S. and its major 
        trading partners . . . Therefore, securities regulators in each 
        nation must work with their foreign counterparts to seek 
        coordinated international solutions to assure fairer as well as 
        more efficient market operations across borders.<SUP>47</SUP>
---------------------------------------------------------------------------
    \47\ H.R. Rep. No. 101-240 at 2-3 (1990), reprinted in 1990 
U.S.C.C.A.N. 3889-3890.
---------------------------------------------------------------------------
    Since 1990, the SEC has been granted statutory authority to gather 
and share relevant information with its foreign counterparts. As a 
result of these statutory provisions, the SEC can offer significant 
benefits to those foreign authorities seeking reciprocal cross-border 
cooperation. Indeed, the SEC has signed Memoranda of Understanding 
(MOUs) with over 30 foreign agencies. These MOUs significantly 
streamline cross-border cooperation and, in some cases, has led to 
helpful information-sharing legislation in other 
countries.<SUP>48</SUP> Congress has given the CFTC similar powers and 
mechanisms for cooperation with foreign authorities.<SUP>49</SUP> 
Through our legislative proposals, we are requesting similar authority.
---------------------------------------------------------------------------
    \48\ See generally Michael D. Mann & William Barry, Developments in 
the Internationalization of Securities Enforcement, 136 PLI/Corp 1999 
(May 2002).
    \49\ H.R. Conf. Rep. No. 978, 102d Cong., 2d Sess. 70-71 (1992).
---------------------------------------------------------------------------
    We have consulted on our recommendations with other federal 
government agencies, including the Department of Justice, Department of 
State, the Federal Reserve Board, the Office of the Comptroller of the 
Currency, the SEC and CFTC, as well as several private companies and 
public interest groups, including the National Consumers League, the 
Electronic Privacy Information Center, and Center for Democracy and 
Technology. We are working closely with these entities in fashioning 
the legislative provisions, both to meet their concerns and to achieve 
our objectives.
    The Commission greatly appreciates the opportunity to provide this 
information to the Subcommittee. We look forward to continuing to work 
with Congressional staff on our legislative proposals.

    Mr. Stearns. Thank you, Mr. Chairman. I think I will start 
with my questions. Obviously from your opening statement, it is 
a very high priority, this proposed legislation combating 
cross-border fraud.
    And I guess that you and your staff, let's say, after 
listening to you talk about the spam that it is probably right 
up to one of your highest priorities. Would you not agree?
    Mr. Muris. Yes. The FTC has become the premier government 
agency for fighting fraud. One of the reasons that you needed a 
Federal agency is that fraud has always crossed State borders, 
and now fraud increasingly crosses international borders.
    There is no higher priority that we have than fighting 
fraud. There is no higher legislative priority than this 
particular piece of legislation. And more and more of the fraud 
is done through spam.
    This is anti-spam legislation. Spam is an international 
problem. It is a growing problem, and it is swamping our e-
mail. It is threatening. As another one of my colleagues, 
Commissioner Swindle, likes to say, spam is threatening to kill 
the killer app of e-mail. We really need lots of help, 
including the other spam legislation on which you are working.
    Mr. Stearns. Let me go to some of the areas since we passed 
the Patriot Act, and a lot of people are concerned. What do you 
think of the argument that as there is no requirement for dual-
criminality in the proposed legislation that will chill speech 
protected under the First Amendment, and nullify the probable 
cause requirement of the Fourth Amendment, would you care to 
comment on that?
    Mr. Muris. Sure. Let me leave the Patriot Act issue aside 
for just a second, and focus on the concern that we would be 
involved in investigating activity that is legal in the United 
States, particularly under the First Amendment.
    We think that we have limited the bill since it was 
originally proposed and we think some further changes would be 
helpful to address this issue. First of all, the bill is 
limited to fraudulent and deceptive commercial practices, or 
other practices substantially similar to practices banned by 
the FTC laws.
    I think that is a touchstone. Again, the touchstone is 
fraud. Now, one of the things that I think is important to 
understand is that across the world, people who are looking at 
fraud, they don't necessarily have agencies like ours.
    Indeed, if you look at across the whole world, the only 
agency that maps us precisely is Australia.
    Mr. Stearns. So in all of the European Union, they don't 
have a----
    Mr. Muris. Well, many places in the European Union, they 
don't follow the FTC model. They don't have necessarily 
consumer protection agencies. A lot of this is left to criminal 
authorities.
    Now, the European Union, I think positively through 
Brussels is moving to have more concern about cross-border 
fraud. They are moving to implement this OECD recommendation 
that I mentioned, but it is important that I think that the 
legislation be written so that the touchstone is fraud and 
deception, or ``substantially similar'' conduct.
    Since we sent proposed legislation to the Hill, we have 
supported such changes. I think a second point that is 
important to make is that we have discretion.
    We certainly do not have to provide assistance. We would 
not provide assistance if it wasn't involving with the 
touchstone of fraud and deception, or substantially similar 
conduct.
    In terms of assistance, the way the legislation is drafted, 
is that we would need to consider consumer injury. Again, that 
is the touchstone of what we do. So the bottom line is that I 
think the concern is absolutely legitimate that we not be 
involved in helping people overseas prosecute conduct that 
would be legal in the United States.
    And we think that the bill as was originally proposed has 
some potential problems in it, and we think we have worked to 
address those. We think a few other changes could be helpful as 
well.
    Mr. Stearns. How do you respond to the observation that the 
delayed notice provision is too broad, and therefore should be 
stricken to ensure due process rights for individuals?
    Mr. Muris. Well, I think originally there were again some 
legitimate concerns about delayed notice. I think some 
additional changes could be helpful there as well. For example, 
the provision was written as requiring the judge to issue the 
delayed notice.
    I think it would be better to leave it in the judge's 
discretion. This is an issue that raises many points about the 
Patriot Act, and I will now address those. We don't do criminal 
law. We don't do search and seizure. We don't detain suspects.
    We would need a court order for this delayed notice. The 
delayed notification----
    Mr. Stearns. I agree with you that there is no comparison, 
but people as a metaphor are going to say here we go, and I 
just think it is important in this hearing to explore those to 
make sure that there is no comparison here at all.
    Mr. Muris. Well, absolutely, plus we have a time limit, and 
I think it would be useful to add that the 90 day's extensions 
could not exceed 1 year under the statute. I think that would 
be a useful change.
    Again, I think the concerns that people are raising are 
legitimate, and I think we can address them. I think the 
Patriot Act is a metaphor and does not apply here. I am not 
obviously an expert on the issues surrounding the application 
of the Patriot Act, but whatever those concerns are--and I know 
that people disagree--I don't think they apply here.
    This statute as written has a specific requirement to show 
that the acts are related to fraud and deception. There is a 
very similar process that already exists and has existed for 
many years for the SEC and the banking agencies. I don't think 
there have been a lot of problems with that.
    So I really think that we can have a delayed notification 
provision that makes sense. Let me just back up and mention why 
it is so important to have this. We are dealing with fraudsters 
or people who commit or who are engaged in fraudulent spam.
    When we seek information about them from third-parties, if 
the third-parties feel that they have to notify the targets of 
our investigation, well, the assets that they have, and maybe 
the parties themselves, are going to disappear.
    That is why we need a delayed notification. With ISPs, for 
example, and spam--this is covered in some different aspects of 
the proposed legislation--there are ISPs who feel that when we 
contact them about fraudulent spam that they need to try to 
contact the target.
    Obviously that deters us from trying to get information 
from them, and from them being the ISPs, about these targets. 
It does not make any sense that we can't have a provision 
subject to court supervision, and subject to the requirements 
that I mentioned, where we can have delayed notification.
    Mr. Stearns. Let me just ask one quick question. You are 
going to make the information that you collect available to 
other governments. So people are going to say is it necessary 
for the FTC to disclose this information to other governments, 
and are there safeguards that must be established if it is 
disclosed for the protection of privacy.
    So that is just a broad comment, and so if we could answer 
that, then I think we have sort of taken care of some of the 
main concerns here.
    Mr. Muris. I think those concerns are legitimate. What we 
found in working with our law enforcement partners around the 
world is that they will give us information and engage in 
reciprocal arrangements if we can promise them confidentiality.
    They will give us the information on condition often of 
confidentiality. The way that the law is right now is that even 
if we are investigating the same target, and say with the 
Canadians. We have a lot of telemarketers in Canada who are 
targeting U.S. consumers.
    The Canadians have on their own done what I think is a very 
commendable thing. They don't want Canada to be a haven for 
cross-border fraud, even though the fraud is aimed more at the 
United States than at the Canadians.
    But we are limited in our ability to share information and 
to receive information from the Canadian law enforcement 
partners. This bill would allow us to do that, and I think with 
appropriate safeguards.
    Mr. Stearns. I thank the chairman, and the gentle lady, Ms. 
Schakowsky.
    Ms. Schakowsky. Yes, I would like to yield if he would like 
to the ranking member on the committee for a statement.
    Mr. Dingell. Thank you for your graceful kindness to me. I 
have already inserted a statement into the record through the 
kindness of the committee. I would like to welcome the chairman 
of the Federal Trade Commission here, Mr. Chairman. Thank you 
for being with us.
    We look forward to working with you. You are addressing a 
very important matter, and I am pleased to see that the Federal 
Trade Commission is proceeding vigorously to address a matter 
of real concern and growing concern to Americans. I thank my 
colleague, and I thank you, Mr. Chairman.
    Ms. Schakowsky. Thank you. It is really the same areas that 
I wanted to explore and just get some clarity on the dual 
criminality issue, for example. You are seeking language that 
specifically states that ``a violation of Federal law is not 
required for the Commission to render assistance to a foreign 
law enforcement agency.'' Is that right? Is that still the 
language that we are working with?
    Mr. Muris. I actually think that we could strike that 
specific language, because the additions that we have proposed 
in terms of tying it to fraud and deception, or ``substantially 
similar'' conduct. I think with those additions it will 
adequately protect us.
    I think the language that you are talking about is 
unnecessary and in some ways unnecessarily provocative. I would 
note just one more thing, that these limits which I think are 
good and appropriate, are limits that the SEC, and the 
antitrust laws, and other laws, don't have. But I think that we 
can work with them, and I don't think that they are a problem.
    Ms. Schakowsky. Good. I would certainly feel more 
comfortable without those particular words, but nonetheless, 
are there examples of information where there has been no 
violation of U.S. law, and maybe in another country they would 
consider--well, why was it there in the first place? What are 
we thinking about in that instance?
    Mr. Muris. Sure. Here is the problem. The problem is that 
when you first start an investigation, you don't know precisely 
what the issues are and what he violations are, and because 
there are so many different laws that don't exactly match up 
with ours.
    We want the touchstone to be fraud and deception and 
``substantially similar.'' For example, there is spam 
legislation, and there will probably be spam legislation here, 
and besides this, more specific spam legislation overseas.
    They might not precisely match up, even though they are 
essentially aimed at the same thing. The spam legislation might 
talk about deceptive headers in one place, and it might talk 
about it slightly differently in another place.
    So even at the end of the day, where you might be going 
after precisely the same conduct and it is illegal in both 
places, particularly at the beginning, it is not going to be 
exactly clear that they match up precisely.
    So we think that rather than have the broader discretion 
that the SEC and other people have, if we say fraud and 
deception and ``substantially similar'' conduct, we think that 
addresses the concern and should avoid problems.
    Ms. Schakowsky. Okay. You talked about the need for 
confidentiality. Give me an example of new authority in terms 
of confidentiality that this would offer.
    Mr. Muris. We have some interesting problems particularly 
when we deal with foreign criminal authorities. Since we are 
not a criminal authority, they would like certain assurances 
out of us.
    For example, one thing that is related to your question is 
that they often won't cooperate with us and share information 
unless we have something explicit that says that we can make 
criminal referrals, because that triggers their ability to 
share information with us.
    They also are concerned about giving us confidential 
information if it would be subject to release under our Freedom 
of Information Act. I can't overstate that if we are going to 
deal with spam and deal with cross-border fraud, we need 
cooperation from foreign authorities, and we need this 
legislation to get that.
    We are the biggest economy in the world, and we are going 
to benefit many times over in a world of reciprocity, because 
everyone essentially wants to sell in the United States.
    There are going to be many more people, and there are going 
to be many more times when we benefit from the reciprocity than 
other people benefit. The Canadian example is an excellent one. 
Canadian consumers are not the ones who are primarily harmed. 
It is American consumers.
    But the Canadians do not want the reputation of being a 
haven for cross-border fraud, and we are limited in our ability 
to cooperate with them right now. Under this legislation, it 
would be easier for us to cooperate with them, and that is 
going to be mutually beneficial. But it is American consumers 
who are the primary targets.
    Ms. Schakowsky. And clearly that is the goal of this 
legislation, but the FOIA exemption, for example, could it not 
give broad exemption to banks and other financial institutions 
to share confidential information about their customers at 
their discretion?
    Mr. Muris. Again, This is not open-ended fishing 
expeditions. We need and we have rewritten the proposals from 
what we originally proposed, and we have a few more suggestions 
to tie it directly to the touchstone of fraud and deception.
    On the delayed notice, I mentioned giving courts discretion 
is important. On the FOIA, I think that a law enforcement 
exception is appropriate. It is well recognized. It has existed 
for years.
    We just need to make sure that it applies in this 
particular context, because quite frankly when people were 
writing these laws in terms of the Federal Trade Commission, we 
didn't have a cross-border problem. We didn't have an Internet.
    What happened with the telemarketers is that in the United 
States, with various States and various law enforcement 
officials, we really cracked down on fraudulent telemarketing 
in the United States.
    Well, lo and behold a lot of them relocated to Canada, and 
when people drafted these various laws, including FOIA, and 
including the laws that deal with us, they didn't have this in 
mind. So we are really completely consistent with the original 
principles of law enforcement exceptions for FOIA.
    Ms. Schakowsky. Thank you.
    Mr. Stearns. I thank my colleague. The gentleman from 
Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman. Tim, again, it is 
good to see you and have you here. We are wrestling here in the 
national arena with the Patriot Act, and this relationship 
between how do you enforce the laws, and how do you get 
agencies to talk to each other, and also international 
agencies, international law enforcement with our law 
enforcement.
    And I think that is part of the challenge, and what is 
admissible, and what is not admissible. So this is very similar 
to that whole debate. A lot of the witnesses, or some of the 
witnesses in the next panel will talk about civil liberty 
concerns with the bill.
    And I am hoping that you can address some of those for me, 
and explain what is the reasoning for the Freedom of 
Information Act exemptions.
    Mr. Muris. Let me just talk at a broader level, and then 
come down to specifics. We have a serious problem in dealing 
with fraud. As a law enforcement agency, we need to be able to 
cooperate in the same way that we cooperate with domestic 
agencies. We need to be able to cooperate with our foreign 
counterparts, and that is really all we are asking.
    Whether it is a domestic setting, or a foreign setting, 
there are obviously concerns about the powers of the 
government. I understand those concerns. I think that our track 
record as an agency is excellent. We are a small agency with 
limited resources.
    We have virtually no reputation for going on wild goose 
chases, and we are going after people who are fraudsters. 
Essentially all we are asking is to have the same kinds of 
abilities as many other agencies have to cooperate and share 
information subject to that information not becoming public.
    The same cooperation that we have with domestic officials, 
we want to have that with foreign officials. I think in general 
that some of the concerns raised were legitimate, and in 
working with the staffs, and working with the Senate, we have 
proposed lots of changes to address those concerns, because 
indeed I think they are legitimate.
    Mr. Shimkus. And you know that one of our primary roles is 
to have oversight of the Federal agencies that we have 
jurisdiction of. Do you think or don't you think--I mean, I 
do--that there probably should be some reporting requirements 
to us so we can perform our oversight role?
    Mr. Muris. Absolutely, and that was something that we 
didn't have in the original proposal. People have raised that, 
and I think that is a good idea. It is going to take 3, 4, or 5 
years to get some experience. So I think it would be better to 
have an initial 3-year reporting requirement, over 3-year 
cycles.
    I think that will give us a real opportunity to gather 
experience and to explain the experience. We are on a steep 
upward curve here in cooperation internationally and learning 
how to cooperate internationally.
    We are trying emulate in some ways what has happened 
internationally on price fixing. Congress has given a lot of 
this authority, in terms of dealing with international cartels 
and price fixing.
    In the last several years, there has been excellent 
enforcement, and some important cases pursued. We are trying to 
emulate that experience with cross-border fraud. We are several 
years behind, but this legislation would be extremely helpful.
    Mr. Shimkus. Thank you, Mr. Chairman, and I yield back my 
time.
    Mr. Stearns. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Chairman, I ask 
that my statement be made part of the record.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Stupak. Thank you.
    Mr. Chairman, Federal Trade Commission records show that 
about 46 percent of the complaints of cross-border fraud 
originate from Canada, and so I am trying to ask some questions 
along those lines on this cross-border fraud.
    Some of the members have brought it up earlier, but what 
protections would there be in place, and I know that we have 
some proposals from the FTC there to combat this cross-border 
fraud, but what protections would be in place to limit the 
disclosure of private consumer information to foreign 
governments, and what protections will exist to limit the 
foreign government's use of that information?
    Mr. Muris. First of all, let me just describe what we do 
domestically. I think we have an excellent track record. We 
cooperate with other Federal agencies, with State Attorney's 
General, with local law enforcement authorities, obviously with 
U.S. Attorneys.
    What we are proposing is to be able to engage in the same 
sorts of cooperation. The most important safeguards are in 
terms of the touchstone; that we are dealing with fraud and 
deception. There are obviously a lot of legal requirements that 
are imposed upon government officials, in terms of ethical and 
other requirements about what they can do.
    There is a concern that we not be used to investigate 
conduct that is legal under U.S. law. I think that is a 
legitimate concern. I think various changes in the statute, in 
the draft since it has been proposed, would address that.
    Including that we would have a lot of discretion. In terms 
of delayed notification, which is very important to us because 
we need to get information about people who we think are 
engaged in spam or other fraud, and we don't want them to be 
notified.
    We think that additional safeguards like discretion on the 
part of the judge would be useful. So I can't over-emphasize 
enough that we already are engaged in enormous cooperation with 
law enforcement agencies and have been for a long time within 
the United States.
    Because the problem is migrating, particularly to Canada as 
you mentioned, and because these people are targeting U.S. 
consumers, we are asking for the same kinds of ability to 
cooperate with the same kind of protection with people outside 
of the United States.
    Mr. Stupak. Well, let me ask this question, and is the FTC 
then really the agency that should be handling this? Do you 
work with the State Department since we have sort of like 
foreign countries involved?
    You mentioned that domestically that you work with State 
Attorney Generals, like the State Attorney General of Michigan, 
and since we border Canada, should they be involved in this? Do 
we have the right agency here in doing this?
    Mr. Muris. Well, we are the primary agency in the Federal 
Government that deals with consumer fraud. Now, quite frankly, 
I am happy to get more agencies involved. We are hoping to get 
more criminal enforcement. We put an emphasis on criminal 
enforcement.
    We have several U.S. Attorneys working with us on 
investigations of spam, for example. I think you need a Federal 
coordination agency with enforcement authority, and that's us. 
Obviously in terms of the State of Michigan, we work closely 
with that State, and with other States that border Canada.
    They are obviously quite interested in this. Of course, the 
telemarketers are telemarketing all over the United States. 
Just in terms of telemarketing, for example, since the 
telemarketing sales rule went into effect about 8 years ago 
between the States and the Federal Trade Commission, we have 
brought something like over 1000 cases.
    We work closely together and the coordination function is 
important, and that is what we do.
    Mr. Stupak. Should there be pressure from the State 
Department to put more--well, I hate to use the word pressure, 
but to at least discuss it with Canada? It sounds like if we 
can drive them out of this country, and they just go north to 
Canada, whatever pressures we use to get them out of our 
borders and send them elsewhere, couldn't those same pressures 
be used in Canada, and use a cooperative approach to try to 
drive them out?
    Mr. Muris. Well, in fact that is what we are doing, and 
that is why we need this law, because we are hindered--the kind 
of cooperation that we engage in with the State of Michigan and 
with the U.S. Attorneys, we can't do all of that with the 
Canadian officials.
    The Canadians--and again to their credit, these are 
companies targeting, or mostly targeting, U.S. consumers, and 
the Canadians do not want to become a haven or known as a 
country where they have these people attacking the United 
States.
    Mr. Stupak. Right.
    Mr. Muris. They are working with us and this legislation 
will allow us better to be able to work with them. If we are 
investigating the same target, we can engage in the kind of 
information sharing that we can with the Attorney General of 
Michigan.
    Mr. Stupak. Well, a lot of telecommunications companies, 
especially telemarketers, are in India. If we pass this 
legislation, would it help you, whether it is Canada, India, or 
wherever it may be?
    Mr. Muris. Absolutely. Unfortunately the problem is growing 
and it is only going to get worse. The problem of the Internet 
is a problem. The Internet has had tremendous benefits, but it 
has also opened up the potential to do fraud over the Internet.
    If we are going to seriously attack fraud, we need 
legislation to allow us to deal with a cross-border problem, 
because quite frankly more and more of it is becoming cross-
border.
    Mr. Stupak. Well, maybe I should be talking to you about my 
drug law, and I am trying to get the FDA to crack down on these 
Internet sales, and it has been 5 years, and they won't even 
give us a yes or a no on my legislation. Maybe I ought to come 
to the FTC. Thanks.
    Mr. Muris. Thank you.
    Mr. Stearns. I thank the gentleman. Mr. Issa, the gentleman 
from California.
    Mr. Issa. Thank you, Mr. Chairman. Commissioner, I've only 
got a couple of questions, and perhaps as time goes on some of 
the others will be answered, and so I won't ask too many. But 
if I understand correctly, your proposal would result in a year 
of delayed notification.
    Mr. Muris. Yes, but again, I think we should change the 
language from where the judge has to do it, to where it is in 
the judge's discretion. That is a legitimate point that people 
have made, and let me just give you the context again.
    For example, I mentioned the ISPs and spam. We go to some 
ISPs right now. We know it is spam, and they know it is spam, 
and they feel that they have to try to contact the target of 
our investigation. That doesn't make any sense to me, but they 
read certain laws that way, and we are asking that the law be 
changed so that we can get information from them without 
scaring our target away.
    We try to get money back for consumers. Well, once the 
target gets a hint of what we are doing, the money, not 
surprisingly, disappears.
    Mr. Issa. And I appreciate that. I guess being a 
Californian and being aware of the dot.com year which started 
off as one quarter, and then become 1 month, and some would say 
became a week, I am a little incredulous that we would allow 
spamming to go on for a year.
    It seems like an inordinately long period of time in what 
is an almost instantaneous business, and one in which movement 
and reorganization, et cetera, would go on. Would you 
conceivably allow for a much shorter period of time, before you 
would have to go back and renew on, let's say, a monthly basis 
with a Federal Judge? I am very concerned that saying, look, we 
just sort of have this 1 year guideline, is about 12 times 
longer than I would think would be necessary.
    Mr. Muris. Here is the problem. First of all, the renewal 
that we are talking about would be in essence in 90 day 
increments. The problem is we can't find these people right 
now, even domestically, and finding them--the spammers may move 
on, but it is often the same spammers and the same sellers.
    We have to issue--we call them CIDs, but they are subpoenas 
essentially. We have to issue 10 or 15 subpoenas sometimes just 
to track somebody at all. You can't track them directly over 
the Internet because of the anonymity. You have to follow the 
money.
    So even though they have moved on in real time, if we are 
going to deal with these people, our investigations have to 
take a long time. Internationally, unfortunately, a year is not 
very long. Obviously if our experience is that--one of the 
reasons that the report function would be so useful would be 
that we would be able to track some of this.
    But I think that 90 day increments is not long at all. I am 
a Californian myself. I grew up in San Diego, and we 
originally----
    Mr. Issa. Hi, neighbor.
    Mr. Muris. We recently brought a case involving so-called 
``phishing.'' It involved a juvenile in California who was 
spaming and claiming that he was--I think it was AOL, and he 
stole hundreds of identities of people, and he would charge to 
their credit cards. It took us a long time to track that down.
    Mr. Issa. Was he still a juvenile when you were done?
    Mr. Muris. Yes.
    Mr. Issa. Too bad. And following a slightly different path, 
what are the foreign government entities with which you would 
share and what would be the control on personal information?
    Would you be willing to be specifically limited in sharing 
to that same judge that issued the subpoena? In other words, 
not all countries, all entities, are equally trustworthy. We 
could specify off the top of our heads on those Canadian 
entities that are our counterparts, and the protections are 
somewhat similar.
    But I have no idea who you share with in India and what the 
impact would be. Is that something that you envision specific 
oversight by the subpoena power on or some other agency?
    Mr. Muris. There are a couple of things there. The original 
proposal that we made was probably too broad, and we in working 
with people have cut it back. It is clear that we need to have 
discretion in how we are sharing, and we need to have 
guidelines. Again those are changes that we have made as people 
have raised these legitimate concerns.
    The guidelines that now are drafted, and which give us 
discretion, tell us the things that we need to be worried 
about. We need to be worried about consumer injury. We need to 
be worried about that we are dealing with fraud and deception, 
or ``substantially similar'' conduct.
    I think that those guidelines are tighter than they were 
originally and I think they are appropriate. I think obviously 
that we need to have a little experience, and then Congress 
could evaluate to see if they want to broaden them, or tighten 
them.
    Mr. Issa. Thank you. Thank you, Mr. Chairman, for holding 
this hearing, and obviously this is an important piece of 
legislation, and I appreciate you making this available to us.
    Mr. Stearns. I thank the gentleman. The gentleman from 
Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and like my colleagues, 
I am glad that our subcommittee is holding this hearing. When I 
was first approached on the International Consumer Protection 
Act, I looked at it from the spam perspective, but I know that 
it is much bigger than that, simply because my colleague on the 
committee, Congressman Wilson and I, have been working for 
three sessions to pass anti-spam legislation. And we are 
working in our committee now to see if we can do it, and to 
empower the FTC to be able to be the enforcement agency.
    And I know the concern that I have is that a lot of our 
States have passed very tough laws, but again spam comes across 
State boundaries as well as international boundaries, and my 
argument is that we need to do something here on spam, and 
empower the FTC. And again this International Consumer 
Protection Act will give you that ability to deal with our 
trading partners, whether it be Canada, or India as Mr. Issa 
said, or other countries that we work with on lots of other 
ventures, and of course we can do it on spam also.
    You indicated that the legislation was needed to improve 
the international cooperation necessary to combat the cross-
border fraud. Do your counterparts in other countries have this 
ability? I know that you answered that a little bit about the 
criminality of it.
    But do other countries have the ability--and particularly 
in consumer issues, like spam, and unsolicited faxes, and 
things like that--to cooperate on an international level in the 
same or similar ways that you are seeking here?
    Mr. Muris. Well, that is an excellent question, and we are 
on a--what I would hope is a very steep increase in 
international cooperation, which will really be facilitated by 
the passage of this legislation.
    We also have the various agreements with other countries, 
and the OECD recommendation which I mentioned, which was 
passed. It could not have been done without the unanimous 
agreement of the countries, but guidelines on cross-border 
fraud will I think encourage much greater cooperation.
    I mentioned in a comment or a question from the Chairman 
that the European Union is moving more in this direction. I 
think the concern over spam is undoubtedly driving a lot of 
this, and I am hoping that we can emulate the cooperation that 
has just occurred in the last really 5 years on going after 
price fixing, and the anti-trust problem of price fixing.
    We can do the same thing with excellent international 
cooperation on fraud. Quite frankly passing this legislation 
will be a tremendous signal to our trading partners and to the 
other countries around the world that we are serious about this 
problem.
    We have organized to a significant extent law enforcement 
agencies in the United States over the last couple of decades 
to attack the fraud problem. It is a problem that will always 
be with us, like theft or other problems, but we need to deal 
with it. We hope to be able to engage in the same kind of 
organization internationally.
    Mr. Green. Mr. Chairman, I don't have any other questions, 
but I thank you, and hopefully we will be able to do a one-two 
punch not only in this legislation, but also the strongest 
anti-spam legislation that Congress can pass. Thank you, Mr. 
Chairman.
    Mr. Stearns. I thank the gentleman. Mr. Terry.
    Mr. Terry. Mr. Chairman, I only have one short question. 
You had mentioned that you felt that it was a legitimate 
concern that the conduct needs to be illegal in the United 
States for you to become involved.
    I agree with that, but if the conduct would be illegal in 
the United States, what are the barriers to cooperation with a 
foreign government like Canada? I guess what I am saying is 
what is the need for this type of a bill if the conduct is 
illegal here?
    Mr. Muris. Well, first of all, what I have said is in terms 
of the touchstone that we would like are fraud or deception, or 
``substantially similar'' conduct, because the agencies 
overseas and countries overseas don't line up, even if they are 
going after the same practices, they don't necessarily line up 
with laws that read exactly like ours.
    The problem is, and Canada is a perfect illustration, the 
telemarketers have set themselves up--such as many of the 
fraudulent telemarketers in Canada--to target U.S. consumers. 
We cannot cooperate with the Canadian authorities the same way 
that we can cooperate with domestic authorities. That is what 
we are asking, to be able to work with----
    Mr. Terry. What specifically though is preventing you from 
being able to cooperate? What in our laws, rules, regulations, 
or whatever, prevent you from cooperating, especially if it is 
illegal conduct here?
    Mr. Muris. There is a whole series of things that we cannot 
do. We cannot guarantee confidentiality of information. We 
can't share information outside the United States.
    So both ways we have a problem. We have a problem getting 
foreign judgments enforced, which part of this legislation 
would address. There are courts that read our laws in ways that 
we think this legislation would fix, so that they would enforce 
a foreign judgment.
    I mean, the simplest problems that I alluded to a second 
ago is that we can't share the information. There is a Canadian 
telemarketer, for example, targeting the United States. We 
can't share information we found through one of our subpoenas 
with the Canadian authorities.
    If the Canadian authority makes a request to us, we can't 
investigate and help that Canadian authority, and give him the 
information back, even though the Canadian authority is trying 
to track down someone who is targeting U.S. consumers. The law 
prohibits us from taking all those steps that I have just 
mentioned.
    Mr. Terry. And that's where my confusion comes in, because 
we are all aware of at least on the criminal side that there is 
cooperation in investigations with other countries, and it does 
not seem to me that they are coming before us.
    Maybe in Congress' past, they have given that type of 
specific authorization. Whereas, the difference that you are--
your actions are only civil and not criminal.
    Mr. Muris. That is the point precisely. As Congress has 
given this kind of authority to all sorts of agencies, as to 
both civil and criminal, and there are these multilateral 
assistance treaties, MLATS, which Congress has passed authority 
for on the criminal side.
    There are the SEC, and the CFTC, and the banking agencies, 
have a lot of the authority that we are asking for, and some of 
it going back many years. We don't have it, and that is exactly 
what we are asking for.
    Mr. Terry. Well, to further my purpose here, when you want 
to use this proposed new law, and let's say it is in effect, 
will this be raised by the way of Canada coming to us, or 
Mexico, or a foreign government, or is it usually initiated 
because of a complaint filed by an American citizen that they 
have been defrauded, and then you follow up and investigate?
    Mr. Muris. Certainly if we have a world of mutual 
cooperation, we will benefit many more times than other 
countries, because we have the biggest economy. People want to 
sell. The legitimate companies want to sell to us and the 
fraudsters want to sell to us, because our economy is so big, 
and our people are so rich.
    So in a world of increased reciprocal obligations and 
reciprocal cooperation, we will be the winner. What the 
Canadians are doing is quite commendable. You know, Canadian 
consumers are not primarily the victims. It is Americans. But 
they don't want to be a haven for cross-border fraud.
    That is commendable, and what we are asking for is the 
ability to be able to cooperate with them in a more effective 
way that will protect American consumers.
    Ms. Schakowsky. If the gentleman will yield.
    Mr. Terry. Yes.
    Ms. Schakowsky. My understanding though is that this is 
because consumer complaints from the United States have ended 
up sometimes at a stone wall because we don't have the 
authority. But is that not true that this is really generated 
because we want to be able to protect our consumers from whom 
we are hearing about these problems?
    Mr. Terry. Absolutely. And taking back my time. That is 
exactly the point that I want to make, is that I think the 
philosophy behind this bill should be the protection of 
American consumers, as opposed to simply an agreement of 
cooperation when another country contacts us.
    Both are commendable, but certainly my priority would be 
the protection of U.S. consumers.
    Mr. Muris. I agree with that and I understand that, but 
what I am saying is that because we are the biggest economy, 
and because we are such an attractive target, in a world where 
countries agree to cooperate with each other, it is our 
consumers who are going to be benefited many more times than 
others.
    Mr. Stearns. I thank the gentleman. The gentleman from 
Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman. I have a written 
statement that I would ask for unanimous consent to have 
entered in the record.
    Mr. Stearns. By unanimous consent, it is so ordered.
    Mr. Otter. Mr. Chairman, and ranking member, I thank you 
very much for this important hearing. I have some concerns 
about it, and most of those concerns I think have already been 
voiced by other folks.
    But in the draft legislation, and I want to refer you to 
Section 8, confidentiality, delayed notice of process, and 
specifically Section 21A, confidentiality and delayed notice of 
compulsory process for certain third-parties, pages 15 and 16.
    My question is that I am concerned about the current 
language in relationship to the adverse testing result, or the 
results of testing. Could you explain why the FTC thinks it is 
necessary to have the power to determine the possibility of 
adverse results without first consulting with the appropriate 
judge, and presenting and seeking such latitude as you are 
asking for?
    Mr. Muris. My understanding is that generally we would have 
to go to a judge, with the exceptions that are already in the 
statute, and so I don't think we are asking for unilateral----
    Mr. Otter. Excuse me, but the exceptions that are in the 
statute relative to fraud, foreign fraud?
    Mr. Muris. Well, it is the exceptions that are in the 
Electronic Consumer Protection Act statute. I don't think they 
relate specifically to foreign fraud. They relate generally to 
law enforcement. I don't think that we are asking for any new 
or unique unilateral powers, or ex parte powers.
    Mr. Otter. Prior to the passage in October of 2001, and 
what we refer to affectionately, and sometimes not so 
affectionately, as the Patriot Act, law enforcement had some of 
these abilities, and referring primarily to organized crime, 
and drug trafficking, and pornography.
    But even they had only a 48-hour waive time, and then they 
had to go back to a judge, and with compelling evidence, get 
the judge to agree to the continuation of surveillance, or wire 
tapping, or whatever it was.
    And so I did not know that this also--I remember it being 
pornography, RICO, and drugs. I don't remember it referring to 
fraud.
    Mr. Muris. Well, I think that there is confusion here. We 
don't do criminal cases, and we don't do search and seizures, 
and we don't detain suspects. We are talking about delayed 
notification, like when we go to a third-party to get 
information about a spammer or someone engaged in fraud. We are 
talking about confidentiality, preventing the target from being 
notified.
    I mean, some of the concerns, and I think there are 
obviously legitimate concerns in the criminal context. We don't 
have those powers. We are obviously not talking about some of 
the abilities, the extraordinary abilities that exist in the 
criminal context.
    Mr. Otter. Who would then prosecute these cases?
    Mr. Muris. We prosecute cases civilly, and we are trying to 
get criminal authorities more involved. Overseas, sometimes 
these cases are prosecuted criminally. I personally think more 
fraud cases should be tried criminally.
    It is very hard quite frankly to get criminal prosecutors 
to do that. We have powers, and we are very effective, because 
we can get money back for consumers when we can find the money. 
Obviously if the parties were notified, the money would 
disappear. So that is one of the reasons that delayed 
notification is important to us.
    Mr. Otter. Well, I am not totally satisfied with that 
answer, but I want to go on, because my time is going on, and 
this question that I have refers to Section 5, Powers of the 
Commission.
    And I believe that the way that this draft--if I had the 
latest draft--as it is currently written, it allows the FTC to 
investigate U.S. citizens because they may have broken a 
foreign law. Can you help me out with the sovereignty of a U.S. 
citizen over a foreign law?
    Mr. Muris. We will get to you a whole series of changes 
that we think would address some of the concerns that you have. 
Do you have the July 15 draft? We think that there are a lot of 
changes that could be made to address some of these concerns, 
and we would be glad to sit down----
    Mr. Otter. I do have the July 15 draft.
    Mr. Muris. We would be happy to sit down and walk you 
through those. A concern has been raised, and we understand the 
concern. We think we need to make changes to address it that we 
would be investigating people for conduct that is not illegal 
under U.S. law.
    We want the touchstone of this statute to be narrower and 
to be fraud deception, or ``substantially similar'' conduct. So 
I think the concern that underlies your question is a 
legitimate one, and we think there are appropriate limitations 
that should be put in the statute.
    Indeed, we can live with these limitations, because we 
think they are appropriate. These are limitations that are 
narrower than the limitations right now that the FTC, and the 
CFTC, the banking agencies, and others have in dealing with 
these issues.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman, and we thank the 
chairman for his being a witness and his attendance, and his 
staff for coming, and we will move to the second panel.
    The second panel is Mr. Mark MacCarthy, senior vice 
president, public policy, VISA, USA; Mr. Mark Rotenberg, 
executive director, Electronic Privacy Information Center, 
(EPIC); and the third is Mr. Ari Schwartz, associate director, 
Center for Democracy and Technology. Let me welcome the three 
of you, and we welcome the opening statements of the 
individuals. Mr. MacCarthy, we will let you start here.

  STATEMENTS OF MARK MACCARTHY, SENIOR VICE PRESIDENT, PUBLIC 
    POLICY, VISA, USA; MARC ROTENBERG, EXECUTIVE DIRECTOR, 
   ELECTRONIC PRIVACY INFORMATION CENTER; AND ARI SCHWARTZ, 
    ASSOCIATE DIRECTOR, CENTER FOR DEMOCRACY AND TECHNOLOGY

    Mr. MacCarthy. Thank you, Mr. Chairman, and Ranking Member 
Schakowsky. My name is Mark MacCarthy, and I am the senior vice 
president for public policy at VISA USA. Thank you for the 
invitation to appear here today.
    We appreciate the opportunity to talk about the important 
issues raised by the International Consumer Protection Act of 
2003. I would like to thank the committee for focusing on this 
important issue.
    Fraudulent activities should not be beyond the scope of law 
enforcement efforts simply because the fraudulent actor and the 
victim are located in different jurisdictions. Enforcement 
agencies in different countries should be able to cooperate and 
to share information in order to address cross-border fraud.
    I would also like to thank Chairman Muris and the other 
members of the Federal Trade Commission, especially 
Commissioner Mozelle Thompson, for their efforts in this area. 
Commissioner Thompson especially worked with the Organization 
for Economic Cooperation and Development to draft the 
recommendations that Chairman Muris referred to, for 
governments to cooperate in this area.
    In February the FTC held a workshop, a public workshop, 
where businesses and consumer groups, and law enforcement 
officials all shared the view that there needs to be better 
cooperation between the FTC and its counterpart agencies in 
order to combat cross-border fraud.
    The legislation before you generally accomplishes that 
objective. Mr. Chairman, the VISA payment system is the largest 
consumer payment system in the world. There are more than 1 
billion VISA branded cards in the world, and they are accepted 
at millions of locations in more than 150 countries.
    The VISA card transactions volume now exceeds $1 trillion 
annually. The development of the electronic marketplace has 
been a wonderful thing, and VISA has been proud to participate 
in the development of that new market, but it has created new 
opportunities for fraud.
    An Internet merchant can establish a website in one 
country, and provide products and services to customers in 
another country, and perhaps engage in fraudulent and deceptive 
conduct, where they know that they will not be accountable in 
the country where they are selling the products.
    VISA has programs in place to protect consumers from fraud. 
This kind of fraud and other kinds of fraud. We provide a zero 
liability policy for the unauthorized use of VISA cards. This 
zero liability policy goes beyond the protections in the 
current law.
    If a customer has not made a particular transaction, VISA 
will ensure that the customer is not responsible for that 
fraudulent charge. We have other anti-fraud programs. Verified 
by VISA allows cardholders to authenticate their identities on-
line. Our cardholder information security program has a set of 
data security requirements for Internet merchants and others 
who share, and hold VISA cardholder data.
    In addition, VISA's sophisticated global networks detect 
fraud at its earliest stages by analyzing cardholder accounts 
for unusual spending patterns. A brochure describing these 
various programs is attached to my written testimony and 
available on the table for those of you who want to pursue 
that.
    But as a testament to VISA's ongoing fraud prevention 
efforts, VISA's general fraud level has declined since the 
early 1980's. Fraud within the VISA system is now at an all-
time low of just 7 cents for every $100 of transactions.
    We have some information on the extent of the cross-border 
fraud which tends to confirm the information that Chairman 
Muris shared with you. For U.S. cardholders who are victims of 
fraud, approximately 80 percent of the problem occurs within 
the borders of the United States. That means that 20 percent 
comes from abroad.
    But our risk management staff feels that increasingly 
fraudulent merchants are operating off-shore by working with 
financial institutions that are located outside of the United 
States. This makes the FTC's cross-border fraud initiative even 
more urgent.
    VISA tracks the level of fraud, and the number of high-risk 
merchants through a especially designed high-risk merchant 
program. This program also allows us to discipline merchants 
who have excessively high charge backs.
    When fraudulent activity does occur, VISA works with law 
enforcement, including with local investigators, with the FTC, 
with the FBI, with the Secret Service, with Treasury officials 
and with other law enforcement personnel.
    I appreciate the opportunity to appear before you today. We 
think that our systems provide a comfortable and secure way for 
customers to shop on-line. Combating fraud will continue to be 
a major priority for VISA and its member institutions, and I 
would be happy to answer any questions that you might have on 
what VISA does or the legislation before you.
    [The prepared statement of Mark MacCarthy follows:]
   Prepared Statement of Mark MacCarthy on Behalf of Visa U.S.A. Inc.
    Chairman Stearns, Ranking Member Schakowsky and the Members of the 
Subcommittee, my name is Mark MacCarthy. I am Senior Vice President for 
Public Policy for Visa U.S.A. Inc. Thank you for the invitation to 
participate in this hearing. Visa appreciates the opportunity to 
address the important issues raised by the proposed H.R.___, the 
``International Consumer Protection Act of 2003,'' which would increase 
the authority of the Federal Trade Commission (``FTC'') to address 
cross-border fraud and deception. I also would like to thank the 
Subcommittee for focusing on this important issue of cross-border 
fraud. Fraudulent activity should not be beyond the scope of 
enforcement efforts simply because the fraudulent actor and the victim 
are located in different jurisdictions. Enforcement agencies in 
different countries should be able to cooperate and share information 
in order to address cross-border fraud.
    Finally, I would like to thank Chairman Muris and the other members 
of the FTC, especially Commissioner Thompson, for their efforts in this 
area. Chairman Muris focused on this issue in November of last year. 
Commissioner Thompson worked with the Organisation for Economic Co-
operation and Development to draft recommendations for governments to 
cooperate in this area and to pass appropriate legislation. In February 
the FTC held a public workshop where businesses, consumer groups, and 
law enforcement officials shared the view that there needs to be better 
cooperation between the FTC and its counterpart agencies to combat 
cross-border fraud. The legislation before you today generally 
accomplishes that objective.
    The Visa payment system, of which Visa U.S.A. is a part, is the 
largest consumer payment system, and the leading consumer e-commerce 
payment system, in the world, with more volume than all other major 
payment cards combined. There are more than one billion Visa-branded 
cards, and they are accepted at millions of locations in more than 150 
countries. Visa card transaction volume now exceeds one trillion 
dollars annually. Visa plays a pivotal role in advancing new payment 
products and technologies to benefit its 21,000 member financial 
institutions and their hundreds of millions of cardholders worldwide.
    Electronic payments are an important part of electronic commerce 
and cross-border transactions. Visa believes that it has responded and 
continues to respond effectively to the ever-changing challenges posed 
by the increasingly global nature of consumer transactions. In this 
regard, Visa has a keen interest in fraud prevention and combating 
emerging fraud techniques.
    Although electronic commerce is a large and growing channel for the 
sale of goods and services to consumers, as recognized in the proposed 
International Consumer Protection Act of 2003, the development of the 
electronic marketplace also has created new opportunities for those 
engaged in fraud and deception. One such opportunity lies in cross-
border operations. An Internet merchant can establish a Web site that 
can be accessed from anywhere in the world and thereby offer and 
provide products or services to customers without fear that it will be 
held accountable under the laws of the country where the customer is 
located.
    Visa recognized early on that the Internet and other advancements 
in communication technologies would result in heightened concern over 
the potential for fraud. Visa's operating rules provide zero liability 
for the unauthorized use of Visa credit cards and debit cards, 
including where the unauthorized use results from fraud. In this 
respect, Visa rules go beyond existing consumer protections under 
federal law. Part of zero liability is a global merchant chargeback 
mechanism. If there is a problem with a merchant and a customer has not 
made a particular transaction that a merchant has attempted to put 
through the Visa payment system, the Visa chargeback system will ensure 
that the customer is not responsible for the fraudulent charge.
    As the leading consumer electronic commerce payment system in the 
world, Visa considers it a top priority to remain a leader in the 
development of technology, products, and services to protect consumers 
from fraud. Visa currently has in place many security measures to 
prevent fraud. For example, one of Visa's fraud control programs, 
Visa's Secure Commerce Program, includes Verified by Visa. Verified by 
Visa is a service that allows cardholders to authenticate their 
identities while shopping online. Cardholders using Verified by Visa 
add a personal password of their choosing to their existing Visa cards. 
When cardholders get to the ``checkout line'' of a participating online 
store, they enter their personal password in a special Verified by Visa 
window. The password links legitimate cardholders to their account 
information. This verification process protects consumers' cards from 
unauthorized use and provides greater control over when and where cards 
are used. Visa's Secure Commerce Program also includes the Cardholder 
Information Security Program, which is a set of data security 
requirements for merchants, gateways, and Internet Service Providers, 
and any other entity that holds cardholder data.
    In addition, Visa's sophisticated global networks are designed to 
detect fraud at its earliest stages by analyzing cardholder accounts 
for unusual spending patterns and other confirmed risk characteristics 
to identify likely fraudulent activity. Once potential fraudulent 
activity is identified, Visa's network immediately contacts the 
cardholder's issuing financial institution, which will then notify the 
cardholder of the abnormal activity to ascertain whether the 
transactions were authorized. Visa also maintains the Exception File, a 
worldwide database of account numbers of lost/stolen cards or other 
cards that issuers have designated for confiscation, referral to 
issuers, or other special handling. All transactions routed through the 
Visa payment system have their account numbers checked against the 
Exception File.
    Additionally, Visa now offers Personal Identity Theft Coverage as a 
new optional benefit for Visa cardholders, which provides eligible 
cardholders with coverage ranging from $1,000 to $15,000 in 
reimbursement for lost wages, legal fees, and other costs associated 
with recovering from identity theft.
    Visa's fraud programs extend beyond the transaction level to 
educate consumers to better understand and prevent fraudulent activity. 
Visa provides consumer-oriented information about its fraud prevention 
programs on its Web site and provides security guidance for consumers 
focused on e-commerce risks. Visa also helps consumers better 
understand and prevent fraud through preparation and dissemination of 
materials on fraud prevention topics, such as identity theft 
prevention.<SUP>1</SUP> Visa also has partnered with the consumer 
network Call for Action, to provide free, confidential counseling for 
victims of identity theft.
---------------------------------------------------------------------------
    \1\ See, e.g., Visa's brochure ``Protecting Consumers From Identity 
Theft.''
---------------------------------------------------------------------------
    In short, Visa maintains ever-evolving practices to respond to the 
latest techniques of those who attempt to commit fraud. Visa strongly 
believes that its practices should enable consumers to feel comfortable 
using their Visa payment cards both domestically and abroad. Indeed, as 
a testament to Visa's ongoing fraud prevention efforts, Visa's general 
fraud level has declined since the early 1980's, with cross-border 
fraud levels also remaining low despite the emergence of e-commerce. 
Fraud within the Visa system is at an all-time low of just seven cents 
per $100 transacted. For U.S. banks and U.S. cardholders who are 
victims of fraud, approximately 80% of the problem activity occurs 
within the U.S. borders. Visa maintains fraud offices throughout the 
world to handle issues and administer fraud prevention programs. In 
addition to protecting the consumer through zero liability, Visa tracks 
the level of fraud and the number of high-risk merchants through a 
specially designed high-risk merchant program.
    Finally, when fraudulent activity does occur, Visa works with law 
enforcement by notifying issuers of compromised account numbers and 
requesting that the issuers contact the investigating agency. Visa also 
works closely with local investigators, the FBI, Secret Service, 
Treasury Officials, and other law enforcement personnel on a wide range 
of fraud issues.
    Visa appreciates the opportunity to appear before you today. We 
believe our payment system creates a comfortable and secure environment 
for consumers engaged in both domestic and international transactions. 
Combating fraud will continue as a top priority of Visa and its member 
financial institutions.
    I would be happy to answer any questions that you may have.

    Mr. Stearns. I thank the gentleman. Mr. Rotenberg, welcome.

                   STATEMENT OF MARC ROTENBERG

    Mr. Rotenberg. Thank you, Mr. Chairman, and members of the 
committee. I appreciate the opportunity to be with you this 
morning. The Electronic Privacy Information Center is a public 
interest research group here in Washington. We work with a wide 
range of consumer and civil liberties organizations both in the 
United States and around the world, and I would like to begin 
by commending you, Mr. Chairman, and the other members of the 
committee, and the FTC, for the work on this act.
    We think that this is a good proposal and an important 
proposal, and one that responds to growing concerns obviously 
that American consumers have about fraud and theft on the 
Internet.
    At the same time in expressing our support for this 
proposal, I need to emphasize ongoing civil liberties concerns 
that we have about his legislation. Now, I testified in the 
Senate this summer on the companion measure, and I see some 
changes have been made, and I think that this is a step in the 
right direction.
    I was also pleased to hear the Chairman say this morning 
that he thought that provision regarding creating authority to 
prosecute people in the United States, where it would not be 
illegal under U.S. law, and it could be removed, that is a very 
important change, and we were pleased to hear him say that.
    We were also pleased to hear him say that he would favor 
reporting requirements for the use of this new authority, and 
we think that is important as well to evaluate how the FTC uses 
its powers.
    But nonetheless, we have serious concerns regarding the 
impact of this bill on the Freedom of Information Act, and also 
on privacy safeguards that Americans currently have, and I 
would like to devote my time if I could to those two issues at 
this point.
    I need to take just a moment to try to explain the 
structure of the Freedom of Information Act, because I think 
there may be some confusion in this area. The law as passed by 
Congress and enforced by the courts recognizes a presumption 
and the openness of records held by government agencies, and 
this is very important for our open form of government.
    It allows the public to understand the activities of its 
government and to actively participate in decisionmaking. That 
that presumption is limited by a series of exemptions, and 
there are nine exemptions covering a wide range of activities, 
from national security matters, and enforcement matters, to 
matters involving the protection of personal privacy.
    And invariably what happens when people seek information 
from a Federal agency, if the agency believes that it needs to 
protect the information because it falls within one of these 
exemptions, it will apply the exemption, and withhold the 
information, and then the two parties may go to court and argue 
about the scope of the exemption.
    In fact, my organization, because it has been involved in 
many FOIA suits with many Federal agencies, and sometimes we 
get the information, and sometimes we don't. But I think we all 
respect the process, even the agencies do in applying their 
exemptions.
    We have even had the experience with the Federal Trade 
Commission where we pursued a FOIA request to try to get access 
to the complaints that the Commission was receiving from 
consumers about privacy matters, because we wanted to see how 
well the Commission was responding to the concerns of 
Americans.
    Some of the information was disclosed and some of it 
wasn't. That is not unusual. The key point is that this bill 
proposes to create a new statutory exemption, in addition to 
the exemptions that already exist, and I think that this is a 
mistake.
    I think the FTC can say to foreign governments that it 
wants to work with that we currently have the ability in law to 
protect the confidentiality of information in ongoing criminal 
investigations. We currently have the ability in law to protect 
confidential sources, to protect business information, and 
privacy information.
    We do not think it is necessary under our law to create a 
new exemption to be able to cooperate with you in these 
international investigations. So we feel quite strongly that it 
would not be necessary to create a new FOIA exemption as this 
Act proposes to do.
    Now, I would also like to say a few words about the impact 
of the bill on privacy safeguards, and this is important as 
well. We give the Federal Government an enormous amount of 
authority to pursue criminal investigations, but we do so in a 
way to enable oversight and accountability, and frankly to make 
sure that the government does its job as it should.
    One of the core principles in our Fourth Amendment that 
enables the search by government of a person's private 
possessions is notice to the target of an investigation, and 
you will see it on the t.v. shows and you will read it in the 
cases, but in our country the police simply cannot go into a 
home without providing notice to the homeowner that a police 
officer is about to enter.
    And we carry that principle across many, many different 
areas of criminal investigations. Now, there are a few 
significant exceptions. As one of the members pointed out 
earlier, in the wiretap area, for example, we create a 48 hour 
period of time that allows for delayed notification, so that 
someone who is the target of an investigation and thinks that 
they may be subject to an intercept is not able to allude 
capture and detection.
    And that is recognized in law, but a proposal for a 90 day 
delayed notification, or a 1-year notification, is really quite 
extraordinary, and I don't see what the basis would be for such 
an extensive notification.
    I have other suggestions, which I would be glad to provide 
to the committee. I would just like to say finally, Mr. 
Chairman, I think that it is very important with legislation 
like this to understand not only does it impact the rights of 
Americans, but we also send a very powerful message to other 
governments that we work with about how criminal investigations 
are to be undertaken.
    And I think that the United States has shown that open 
government and privacy protection are not incompatible with 
effective law enforcement.
    [The prepared statement of Marc Rotenberg follows:]

    [GRAPHIC] [TIFF OMITTED] 89470.001
    
    [GRAPHIC] [TIFF OMITTED] 89470.002
    
    [GRAPHIC] [TIFF OMITTED] 89470.003
    
    [GRAPHIC] [TIFF OMITTED] 89470.004
    
    [GRAPHIC] [TIFF OMITTED] 89470.005
    
    [GRAPHIC] [TIFF OMITTED] 89470.006
    
    [GRAPHIC] [TIFF OMITTED] 89470.007
    
    [GRAPHIC] [TIFF OMITTED] 89470.008
    
    Mr. Stearns. I thank the gentlemen.
    Mr. Schwartz.

                    STATEMENT OF ARI SCHWARTZ

    Mr. Schwartz. Thank you, Mr. Chairman, and members of the 
subcommittee. Thank you for inviting the Center for Democracy 
and Technology to testify here today. As you suggested earlier, 
Mr. Chairman, the International Consumer Protection Act will 
mark a substantial expansion of the scope of the powers of the 
Federal Trade Commission.
    CDT has been supportive of the work of the Federal Trade 
Commission over the past nine years, as it has helped consumers 
combat fraudulent and deceptive practices in a network economy, 
and especially on the internet.
    As the number of people on-line continues to grow, e-
commerce has become global in nature. Not surprisingly, global 
consumer fraud has followed. As the FTC works to combat 
identity theft, internet fraud, to curb deceptive spam as we 
have been talking about earlier, and to protect privacy on-
line, there is no question that the FTC needs authority to work 
with its international counterparts.
    While the CDT is supportive of the goals of the Act and 
Chairman Muris' desire to work internationally, we believe that 
it is necessary to ensure proper safeguards are also in place 
to protect privacy and due process rights of individuals, while 
protecting consumers at the same time.
    For the most part a proper balance has been struck in the 
act. However, we still remain concerned with two provisions in 
particular. First, we agree with the concerns that Mr. 
Rotenberg raised about delayed notice, and we do not think that 
the delayed notice provision as it stands adequately protects 
individuals.
    Historically under the Fourth Amendment of the 
Constitution, individuals are given direct notice if the 
government wants their information in an investigation. If the 
government wants a record from my home, they have to knock on 
my door and serve me with a warrant.
    As more information is held by third-parties--insurance 
information, credit cards, purchases, et cetera--government 
agencies have pushed to get this information without warning 
the subject of the investigation.
    As more and more information moves to the network world, 
and thus, more information is held by third-parties, privacy 
and due process concerns are raised by this activity. In the 
past, subjects could move to stop mere fishing expeditions when 
they receive notice, and under this bill there would be little 
pushback on an FTC that exceeded jurisdictions in these cases.
    CDT suggests that the delayed notice provision be removed 
entirely, but that at the very least it should be amended to 
remove the most vague of the acceptable reasons or the adverse 
results for such an action in order to limit potential for 
abuse. I have provided suggestions for doing so in my 
testimony.
    Secondly, in here, and I was working off of the July 15th 
version of the bill, as that is the only version that we have 
seen, CDT remains concerned about the lack of dual criminality. 
Simply put the provision as it stands in that July 15th version 
could allow foreign governments to investigate American 
citizens in cases where no U.S. law has been broken, a clear 
violation of due process rights.
    It has been suggested that the Act's provision in requiring 
the FTC only to take part in cases where the foreign law is 
substantially similar to U.S. law would mitigate this concern. 
However, it is not the foreign law that should be compared to 
the U.S. law.
    It is the investigation that the foreign government is 
undertaking. The FTC should be required to show that the case 
under consideration be worthy of investigation under their own 
jurisdiction, and we have also suggested language that can 
mitigate these concerns as well.
    While I address several other issues in my written 
testimony, I would like to conclude by emphasizing that these 
are broad and important new powers that the FTC needs to get 
its job done internationally.
    Therefore, we hope that this committee will continue to 
oversea the Act implementation, especially with regard to 
accountability, privacy, and due process rights as it is put 
into effect. Thank you again for having me here and I look 
forward to your questions.
    [The prepared statement of Ari Schwartz follows:]
  Prepared Statement of Ari Schwartz, Associate Director, Center for 
                        Democracy and Technology
                               i. summary
    Chairman Stearns, Ranking Member Schakowsky, and Members of the 
Subcommittee, the Center for Democracy and Technology (CDT) is pleased 
to have this opportunity to testify today on the cross-border fraud 
proposals of the Federal Trade Commission (FTC).
    The draft bill before the Subcommittee, the International Consumer 
Protection Act, is landmark legislation, reflecting a major expansion 
in the scope of the enforcement activity of the FTC. The problems to 
which this bill responds are certainly deserving of attention. As the 
number of consumers online continues to grow, and as we see significant 
increases in Internet usage by businesses and individuals in countries 
around the world, e-commerce has become global in nature. Not 
surprisingly, global consumer fraud has been an undesirable side 
effect, threatening the trust that is an element of e-commerce. As the 
FTC steps up its efforts to prevent Internet fraud, to curb deceptive 
spam, and to address other obstacles to Internet commerce, there is no 
question that it needs authority to work with its counterparts overseas 
to more effectively protect consumers. The International Consumer 
Protection Act transforms the FTC into a regulatory agency of truly 
international reach.
    Yet, while CDT supports the overall intent of the Act, and while we 
highly respect the work of the Commission and its staff, and commend 
especially Commissioner Thompson and Chairman Muris for their 
leadership in this area, we would be concerned with any authorities 
that would infringe on the privacy and due process rights of 
individuals or diminish accountability of government agencies.
    For the most part, the International Consumer Protection Act 
achieves the right balance. CDT has worked with the Commission to 
address several of our areas of concern either through text changes or 
through a better understanding of how the FTC operates.
    However, CDT still has concerns with the bill that have not been 
addressed. In particular:

 The delayed notice provisions of the bill are very broad and would 
        give the FTC the ability to obtain access to sensitive 
        financial and other information without notice. We recommend 
        narrowing the scope of the delayed notice provision to specific 
        and justified circumstances.
 The authorization for FTC cross-border cooperation in cases involving 
        conduct that would not be illegal if committed in the US (the 
        lack of ``dual criminality'') opens the potential for diversion 
        of scarce resources. At this phase in the development of the 
        FTC's cross-border activity, it should focus on conduct that 
        that is serious enough so that it would be illegal under US 
        law.
    We urge the Committee to amend the bill accordingly.
                             ii. about cdt
    CDT is a non-profit, public interest organization dedicated to 
developing and implementing public policies to protect and advance 
civil liberties and democratic values on the Internet. One of our core 
goals is to enhance privacy protections for individuals in the 
development and use of new communications technologies.
 iii. cdt's concerns with the international consumer protection act of 
                                  2003
Delayed Notice of Access to Sensitive Records (Section 8)
    Section 8 of the International Consumer Protection Act concerns the 
question of notice to the subjects of investigations that their records 
are being disclosed to the FTC. Notice of disclosure is a central 
element of fair information practices. Notice has become increasingly 
controversial as more and more records about individuals and companies 
are held by third parties. Obviously, if the government wants records 
from you that are relevant to an authorized investigation, it can force 
you to disclose them with a subpoena or other process, and it gives you 
notice when it serves the subpoena on you. This is the normal Fourth 
Amendment model and is the way that investigations were traditionally 
conducted. The recipient of the subpoena has the opportunity to contest 
the subpoena, to protect against fishing expeditions. But more and more 
records about individuals and companies are held by third parties--
including banks, merchants, insurance companies, credit card companies, 
and online service providers--who may have no interest in seeking to 
ensure that a subpoena is narrowly focused, since the records do not 
pertain to them. Increasingly, the government is seeking to prohibit 
holders of data from disclosing to their customers the fact that the 
government has sought their records. This means that the person whose 
privacy is being breached has essentially no opportunity to challenge 
the subpoena.
    It is in this context that we are concerned about the delayed 
notice provision of the International Consumer Protection Act. Section 
8 would grant the Commission power to access data about someone without 
providing notice to the individual and allowing the individual to 
challenge the subpoena. The delayed notice provision is not limited to 
cross-border investigations, but applies as well to purely domestic 
activity of the FTC. The fact that delayed notice might be used in the 
international consumer protection context heightens our concern, for it 
means that records will be disclosed to foreign governments, against 
whom redress may be extremely difficult if the records are misused.
    We would prefer to see the entire delayed notice section removed to 
clearly ensure due process rights for individuals and set a strong 
example for consumer protection agencies around the world that notice 
is an important element of fair investigations. At the very least, the 
definition of ``adverse result'' should be more narrowly drawn so that 
the powers cannot be abused. We recognize that there are various 
definitions of ``adverse result'' on the books. The definition used by 
the FTC should be keyed to the specific and documented needs of the 
Commission. In particular, CDT recommends that subparagraph (2) 
(``impeding the ability of the Commission to identify or trace funds'') 
and subparagraph (8) (``otherwise seriously jeopardizing an 
investigation or unduly delaying a trial'') be removed from the 
definition of ``adverse result.'' These two criteria seem so broad that 
they could apply to every investigation. (Every case involving fraud is 
likely to involve difficulty in identifying or tracing funds.) The 
serious problems faced by the Commission would be covered by the other 
components of the definition.
FOIA Exemptions (Sections 7 & 9)
    The bill contains two different Freedom of Information Act (FOIA) 
exemptions. CDT believes that all FOIA exemptions should be approached 
with caution, since transparency is an essential value for a 
functioning democracy. Specifically, FOIA is often the only means to 
ensure government accountability. Moreover, ``so-called (b)(3)'' 
exemptions not only prevent individuals from obtaining information, but 
also are sometimes mis-interpreted by agencies as broad prohibitions 
against proactively disclosing information they would otherwise deem 
necessary to distribute to the public.
    Section 7 of the International Consumer Protection Act would grant 
an exemption for foreign investigative materials given to the FTC. It 
is CDT's understanding that this provision is intended to parallel the 
existing exemption from FOIA in the Federal Trade Commission Act for 
materials acquired by the Commission by subpoena or voluntarily 
disclosure in lieu of subpoena in the course of an investigation. We 
understand the basis for this exemption, but recommend that it be 
narrowly drafted. For example, we recommend that the withholding be 
limited to circumstances where the foreign government agency has 
``requested confidential treatment as a condition of providing the 
material.'' In addition, CDT notes that Congress is still given the 
authority to gain access to these materials. Therefore, we encourage 
this Subcommittee to diligently pursue oversight of international 
consumer investigations to ensure effectiveness, since the public will 
not be able to scrutinize these activities through FOIA.
    The second FOIA exemption, Section 9 of the Act, would exempt 
material voluntarily submitted to the FTC, ``to the extent such 
disclosure could reasonably be expected to reveal either the identity 
of a person, partnership, or corporation that is the subject of such a 
disclosure, or the identification of a particular financial account, 
its ownership, or a confidential record of account activity.'' The 
original version of the bill had a particularly broad exemption that 
could have permitted the FTC to withhold, in a wide range of 
circumstances, information about fraud schemes targeting large numbers 
of individuals.
    CDT worked with the FTC staff to develop the current language, to 
ensure that the name of the corporation or entity disclosing the 
information is exempt without removing from public view the fact or 
nature of the complaint itself. This language is an attempt to achieve 
a balance that will encourage companies to share information with the 
FTC and still require disclosure under the FOIA of adequate information 
to inform and protect the public. As this provision is intended to 
encourage the sharing of information, CDT urges the Subcommittee to 
monitor its implementation. If companies are still not sharing 
information with the FTC as intended, this exemption should be 
revisited.
Dual Criminality (Sections 5 and 7)
    As a general rule, US law enforcement agencies should cooperate 
with foreign governments only in the investigation of conduct that 
would be illegal under US law if it were occurring here. This is the 
concept of ``dual criminality.'' It does not require that the laws of 
other countries use the same or similar words as ours as a pre-
condition of cooperation. Rather, it is a principle that protects US 
citizens and ensures a prioritization of US law enforcement resources 
by focusing cooperation on those circumstances where is illegal under 
US law or would be illegal if occurring in the US. We are concerned 
that the draft bill rejects the principle of dual criminality, and 
would thereby authorize the FTC to spend taxpayer resources aiding 
foreign governments in investigating conduct that the US Congress has 
not deemed worthy of attention in the US. Dual criminality is 
especially important in the context of competitive practices and 
advertising, for some countries have very different definitions than we 
do of what is legal in terms of price comparison advertising and other 
competitive practices.
    The International Consumer Protection Act represents the first 
major legislative expansion of the FTC's authority in cross-border 
fraud enforcement. We recommend a more incremental approach--extend 
cooperation to things that would be illegal under US law, before 
stretching resources and procedures to cover conduct that would not be 
illegal in the US. We recommend, therefore, in Section 5 of the bill, 
that the new subsection 6(j)(1) be revised to refer to ``possible 
violations of laws prohibiting fraudulent, unfair, or deceptive 
commercial practices that are prohibited or, if committed in the United 
States, would be prohibited by any provision of the laws administered 
by the Commission,'' and that the proposed subsection 6(j)(2) be 
dropped. A similar change would be necessary in Section 7.
Other Concerns
    We have a few other suggestions:

 The definition of ``foreign law enforcement agency'' is over-broad, 
        and includes agencies that are really not law enforcement. It 
        seems, for example, that the bill's definition of ``foreign law 
        enforcement agency'' would be broader than the term ``law 
        enforcement agency'' when used in reference to a State or local 
        agency in the US.
 Under the new subsection 6(j) (15 U.S.C. 46(j), we recommend deleting 
        (B) of the definition. Requests from foreign governments should 
        be in writing, just as requests for disclosure from domestic 
        agencies must include a written certification under subsection 
        6(f) (15USC46(f)).
                             iv. conclusion
    CDT commends the FTC for its initiative in the area of cross-
border-fraud--a problem particularly important in the age of the 
Internet. We believe that a balance can be achieved to both protect 
consumers and protect the privacy and due process rights of 
individuals. The FTC should be given reasonable authority to cooperate 
cross-border, so long as any new powers are narrowly defined, are 
subject to checks and balances, and their impact on privacy and due 
process is limited.
    We stress the important role that this Subcommittee has in 
overseeing the implementation of this Act. We urge the Subcommittee to 
hold hearings in the coming years on the effectiveness of this 
legislation and to especially monitor the accountability, privacy and 
due process concerns that we have raised today.

    Mr. Stearns. I thank the gentleman. I will start with my 
first series of questions. Mr. Rotenberg, when I was hearing 
you talk about procedural requirements and safeguards, since 
these are civil matters, how would you overcome the problem 
associated with a notification to people if you did not have 
delayed notification?
    They would simply risk a flight. They would take their 
money and their evidence, and they would be gone. So don't you 
need to in a civil matter just to have a delayed notification?
    Mr. Rotenberg. Well, I think that is an argument that might 
favor delayed notification. I don't think it answers the 
question of what the duration would be. I think that 90 days or 
a year is simply too long.
    One area which I am fairly familiar with is the wire tap 
area, and obviously if you have--
    Mr. Stearns. Is the wiretap more in criminal or is that 
more--
    Mr. Rotenberg. Well, it is criminal, but let me explain 
how--
    Mr. Stearns. I mean, is there a difference between the 
civil and the criminal?
    Mr. Rotenberg. Right.
    Mr. Stearns. So that you are talking about a civil delay, 
which would be much more acceptable than maybe criminal?
    Mr. Rotenberg. Right, but in either scenario, you still 
need means of oversight and accountability, because frankly you 
want to be sure that an investigation is moving forward, and if 
you say to an agency that you have a year before anything needs 
to be said to the public about an investigative matter, I would 
have concerns about how seriously the agency is pursuing the 
matter.
    So the example that I was going to in the wiretap area, 
where you don't want to tip off the target, typically law 
enforcement will get 30 days to pursue the investigation, which 
is the period of a typical wiretap application.
    And if after 30 days, they have not obtained enough 
information to bring the indictment, they will go back before 
the court and ask for an extension, and say please give us 
another 30 days. We are still gathering evidence.
    I think that a similar mechanism would work here. I mean, 
maybe you draw the line at 30 days, and create some mechanisms 
for renewal.
    Mr. Stearns. Mr. MacCarthy, VISA being as large as it is, 
you are probably an expert on identifying and combating cross-
border fraud, and I guess you might give us some of the ideas 
of the emerging fraud techniques that you are using in VISA, 
and I guess some of the challenges that you have in combating 
fraud.
    Mr. MacCarthy. I think that the best way to answer that 
question probably is to tell you a little bit about our charge 
back system, and how it works, and how we keep track of 
merchants who are experiencing excessively high charge back 
rates.
    Consumers have an ability if they have problems with 
merchants to talk to their financial institution that issued 
their card, and make a complaint, and these complaints can be 
in various kinds.
    They can be that I didn't get the item that I paid for, and 
it can be that I got an item, but it wasn't what I wanted. It 
was of inferior quality; or it can be that I did not engage in 
that transaction at all.
    And that kind of complaint is the one that is most 
worrisome to us, because it indicates that there might be some 
fraud or identity theft involved in the circumstances. And it 
is at that point that tour zero liability policy kicks in.
    If there is fraud and the consumer was not engaged in that 
transaction at all, and did not authorize it, then there is no 
liability on the part of the consumer. But we keep track of all 
those complaints, and we note which merchants are involved in 
those complaints, and merchants that have a high percentage of 
their sales involved in these kinds of charge backs, or an 
excessively high number, an absolute number of these charge 
backs, we put them on a list of high risk merchants.
    And we monitor them to make sure that they reduce their 
problem transactions within a timely basis. Now, often those 
merchants are just--they are having back office problems, and 
some of the difficulties that are creating problems for them in 
their relationship with consumers.
    But sometimes they are fraudulent merchants, and sometimes 
they are engaged in patterns of deception and fraud with 
consumers. And when that happens, we are typically in touch 
with law enforcement.
    We provide them with information that relates to these 
kinds of circumstances. In other circumstances the law 
enforcement people, the FTC come to us with a request for 
information about a particular merchant, and in those 
circumstances what we tend to do is we pass the investigating 
agency, the FTC or whoever, on to the financial institution 
that has the relationship with the merchant.
    Those financial institutions are the ones who sign up the 
merchant for using a VISA card. They have all the records and 
the data about that particular merchant. And from then on the 
financial institution and the law enforcement agency, and the 
FTC, engage in a discussion and a dialogue about sharing 
information.
    What we are seeing is that more and more internet merchants 
and fraudsters are moving to a situation where they are dealing 
with an off-shore bank, and they are not dealing with a U.S. 
bank.
    And so when we tell the FTC or other law enforcement 
agencies in the United States that the bank involved is a bank 
outside of the United States, and the merchant is located 
outside of the United States as well, they then have to turn 
around and try to deal with that foreign institution.
    And typically they have to be able to deal with foreign law 
enforcement institutions to get the information that they need, 
and that is why the FTC's initiative in this area to have 
greater cooperation is something that is so important. We are 
seeing more, and more, and more the circumstance of where when 
we provide the information to the FTC, it is information about 
foreign merchants using foreign off-shore banks.
    And they then have to turn around and go to foreign 
institutions to get the information that will allow them to 
pursue the investigation.
    Mr. Stearns. My time has expired. The ranking member, Ms. 
Schakowsky.
    Ms. Schakowsky. Really, my only question is to establish 
your willingness, Mr. Rotenberg and Mr. Schwartz, to continue 
to--if you would be willing to continue to provide us language 
and suggestions, because Mr. Muris confirmed that what we are 
dealing with is a work in progress.
    And you can see that questions about the fine balance have 
been raised on both sides of the aisle, and it seems to me that 
in this collaborative process that we have been having that we 
have a real good chance at developing a bill that addresses 
both the consumer protection concerns and the civil liberties 
concerns.
    So I want to thank you for your input until now, but the 
latest draft that came from the FTC yesterday was an 
improvement. It still does raise those other questions, and my 
hope is that with your help and with the cooperation from both 
sides of the aisle that we can move forward. So I just wanted 
to reaffirm your--
    Mr. Schwartz. Yes, we are definitely interested in working 
with you, and we have been working with the commission for the 
past few weeks on this as well, and I would like to echo Mr. 
MacCarthy's praise of Commissioner Thompson, who has been 
particularly open and has had an open-door policy, and letting 
us come in and talk over some of the issues with him.
    Ms. Schakowsky. And I would like to say that as well. I had 
a long conversation with him yesterday, too, and so it seems 
that all the important stakeholders have been at the table, and 
continue to be, and I think that is the way that we ought to 
operate around here. Thank you.
    Mr. Shimkus [presiding]. Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman. Let me also associate 
myself with the remarks of the ranking member. I appreciate the 
problem that you have, but I am also concerned about what we do 
to the basis of our republic, and especially the right to 
privacy, and especially all of those rights and liberties that 
we enjoy as a result of the basis of our constitutional 
government.
    Mr. Rotenberg, you said during your testimony that these 
agencies were subject to oversight and accountability. Where?
    Mr. Rotenberg. That is a very good question, Congressman. I 
think the point that I was trying to make was that they should 
be subject to oversight and accountability. And there is a 
number of ways that this happens.
    And obviously the oversight committees play a role, and the 
courts play a bit of a role, but I also think the public plays 
a very important role, and part of my concern about the 
limitations on the use of the open government laws in this bill 
is that it would make it more difficult for the public to find 
out how the FTC operates, and what information is being turned 
over to other agencies and other governments.
    And as I looked more closely at the July 15th draft, I 
noticed something also that was interesting. While those new 
exemptions for FOIA are being created, there still is a 
provision in there that says that nothing in this bill limits 
the ability of the Congress or the courts to get access to the 
information, which means that it has occurred to someone that 
it would not be a good idea to make this enforcement authority 
completely secret.
    That information will be available to the Congress, but I 
think that it needs to be available to the public. So my answer 
to your question, Congressman, is that oversight happens partly 
because the public has the ability to understand how its 
government is operating.
    Mr. Otter. While I don't disagree with your response, I 
would only engage in a further discussion here for 
enlightenment; that that may well be the oversight. But that I 
still find absent the accountability.
    Accountability to me would mean that we could take some 
action against the agent or the agency, and actions that was 
appropriate in a violation of the Fourth, Fifth, and Sixth, or 
whatever amendment that it was.
    And I find that absent across the board in our government, 
and by the way, the public is not extending these authorities 
to the government. The Congress is. It is our responsibility to 
provide if you will the framework of the rules and regulations 
by which our government operates.
    The public's responsibility is to decide whether or not we 
ought to be the ones making that decision, and the 
Administration's responsibility is to push that just as far as 
they can, and it has been my experience that they always have. 
And so we must be very, very selfish I think about the 
authorities that we extend, and I still find absent in all of 
this stuff the accountability. Who gets punished if they 
violate the liberties, if they violate the rights or privacy? 
Who gets punished? Do you define punishment in here?
    Mr. Rotenberg. Congressman, the answer to that point is no. 
I don't think there is sufficient accountability.
    Mr. Otter. Am I right in reading--excuse me, but am I right 
in reading, is that the results of the accountability? Is that 
how we manifest accountability, is by some sort of punishment, 
or firing them, or whatever?
    Mr. Rotenberg. Well, I think there are a variety of 
techniques. I mean, one thing which we recommended earlier this 
summer, which the chairman supported this morning, was new 
reporting requirements.
    And our view was that if you are going to give an agency 
new authority, you have to know how that authority is being 
used, and those reporting requirements can be very detailed. It 
can be required on an annual basis.
    It should be made available to the public, and anyone who 
wants to know how much information was turned over to which 
governments, and what were the outcomes. They should have a 
right to know that. That is part of the accountability.
    I am concerned as you are also, Congressman, about a 
provision in this bill which basically creates immunity for 
private parties to turn over personal information to the FTC as 
it pursues these investigations with foreign governments.
    There is a new immunity provision in this bill, and it 
basically says to a bank, or a telephone company, or an 
internet service provider, that if the Federal Trade Commission 
comes to you and asks for information for one of these 
investigations, and you turn it over wrongfully it is later 
determined, you are still immune from any prosecution because 
of this act.
    Now, I can understand on the law enforcement side why they 
do that. That's how they get cooperation. But the effect for 
the customer of those companies is that the rights that they 
would have otherwise have been removed. So I am completely in 
agreement.
    Mr. Otter. I just want to ask the panel one more question, 
and that is we keep talking about fraud and deception, and 
fraud and deception, and that it is a civil result. Can you 
ever conceive where fraud and deception would eventually turn 
into a criminal action, and where would we get the evidence 
then to pursue the criminal action once we have established 
fraud and deception?
    Mr. Rotenberg. That is another important point. I think the 
term civil is being misused a little bit this morning. I mean, 
these are authorities of the government that fall in the broad 
category of criminal investigations.
    And when we talk about civil litigation and civil discovery 
and delayed notification between private parties, it is 
completely different. In fact, in that context, people usually 
know when their records are being sought in a civil matter, 
because the way that they are obtained is through subpoena and 
civil discovery.
    It is an unusual process to be able to obtain information 
secretly, and we do that in criminal investigations because of 
specific concerns that we have about targets of those 
investigations.
    Mr. Otter. If I might ask both Mr. Schwartz and Mr. 
MacCarthy to respond to that question.
    Mr. Shimkus. Without objection, go ahead.
    Mr. MacCarthy. I don't have much to add on the civil versus 
criminal part of your question, but if I could take the 
opportunity to quickly respond to Marc's point about immunity. 
It puts companies like ours in a very awkward situation if we 
receive a request for information from the government, and it 
is all perfectly legitimate and above-board, and we cooperate 
with that.
    And in a later process it sounds that somebody somewhere 
and not us, but somebody somewhere else didn't follow all the 
rules and regulations. If then we are liable for violating 
other rules, it makes it very, very difficult for us to be 
cooperative in that kind of circumstance. So for us the 
immunity provision does create an enormously important part of 
the legislation.
    Mr. Schwartz. I don't have that much to add either. I would 
just say that the comment that Chairman Muris made earlier that 
he saw some points where he would like to see more criminal 
actions taken in some of these civil cases.
    And I was kind of interested to hear what he meant by that, 
and what kind of cases that he was talking about there in 
particular. He did not really go into too much detail there, 
and I would be interested to follow up on that point.
    Mr. Shimkus. Thank you, Mr. Otter. Mr. MacCarthy, in regard 
to complying to a request for information as you were just 
mentioning, from the FTC, is that simply a letter, or are you 
replying to a subpoena? The Chairman had mentioned that they 
still use subpoenas.
    Mr. MacCarthy. It depends on the individual agency and the 
individual case. Often it is a CID or a subpoena that we are 
responding to. Whenever it is necessary, we require that in 
order to respond appropriately to the agencies.
    Mr. Shimkus. All right. And in those subpoenas the 
information is usually fairly specific isn't it?
    Mr. MacCarthy. That's correct.
    Mr. Shimkus. And then, Mr. Rotenberg, wouldn't one of the 
abilities of accountability be the subpoena? Can you describe 
what the process that is proposed in here? This is not an 
agency-issued subpoena is it? They have to go outside the 
agency where there would be some review?
    Mr. Rotenberg. Right. But still--and this was in response 
to the question from Mr. Otter. Still in other circumstances, 
there may be some remedy available to the target of an 
investigation where a subpoena is wrongfully issued, or 
information is improperly disclosed.
    The effect of the immunity provision here is to remove 
those options, and I would just suggest, Mr. Chairman, that in 
understanding the use of this new authority that when it is 
directed against people who aren't engaged in criminal conduct, 
there can be very serious repercussions, and I think we need to 
be aware of that.
    Mr. Shimkus. Well, I think that is one of the reasons why 
at least for myself that it is important that when they seek 
this type of information that they have an independent review 
of the request and the information for which they are acting 
upon is real.
    And that's why I think that a subpoena is absolutely 
necessary, and that does cover VISA and other entities in its 
specifics. So I would probably vote against this bill if it 
wasn't for that fact. Mr. Schwartz, do you have anything to add 
on the subpoena aspect and whether that provides sufficient 
accountability?
    Mr. Schwartz. No, I don't.
    Mr. Shimkus. All right. The other area of discussion seems 
to be the 90 day notice, and Chairman Muris had mentioned that 
they need the 90 days because it is difficult to track internet 
fraud in particular, and that 48 hours may not be enough.
    Mr. Rotenberg, you mentioned that maybe 48 hours would be 
more appropriate at 90 days, and then maybe another 90 days, 
and then another 90 days. And, Mr. Schwartz, you didn't mention 
anything about even 48 hours. So could you rebut the 
Chairman's, or agree, whatever you want to comment.
    Mr. Rotenberg. I should clarify, Mr. Chairman, because 
maybe I was a little confusing in my remarks. There are 
actually a couple of different ways delayed notification works, 
in the wiretap realm.
    The 48 hours actually refers to the ability to conduct a 
search without going to a judge, and without obtaining a 
warrant. And if you have emergency circumstances, you can 
conduct that search and come back 48 hours later, or within 48 
hours, and get the warrant.
    The number that I was focusing on, and which I think is 
actually a good number for this bill, is 30 days. I think 30 
days is a good period of time. And if it is the case in this 
on-line environment that things are happening quickly, and 
people are moving funds quickly, I would say that you would 
want to act sooner rather than later.
    I think that 90 days or a year just opens the door to make 
it more difficult to move these investigations quickly. So that 
would be my proposal.
    Mr. Shimkus. And I think that is a valid proposal. Mr. 
Schwartz.
    Mr. Schwartz. Well, as I said, I think that we would be 
open to discussing how to make this clear. I think under the 
July 15th draft that there was no--that the judge basically had 
to approve it, and Chairman Muris went into some details, 
saying that they want to open up the idea of making sure that 
there is a court order and under a judge's discretion.
    If that is the case, the idea of looking for some kind of 
flight risk as part of this I think would be appropriate, and 
the issue of--I do agree that it is more difficult on the 
internet to track, and the time periods may be a little bit 
different there.
    If you look at some of the spam cases that they have gone 
into, a lot of them are bouncing mail off servers in Shanghai 
specifically to hide the tracking of where the mail comes from, 
and I think that does prove that there is some international 
aspect to it that they don't have in the telemarketing cases.
    So the time period I think is up for discussion. Thirty 
days with renewal sounds reasonable, I think; and 60 and 90 
days sounds reasonable, depending on the circumstance, and I 
think we should discuss that in a little more detail. It is not 
something that we have really vetted with the FTC at this 
point.
    Mr. Shimkus. Thank you. I think those comments are helpful, 
and certainly we will consider those. On behalf of Chairman 
Stearns and the ranking member, and the entire subcommittee. I 
thank you for your time coming in here today and helping to 
shape this important legislation, and the subcommittee now 
stands adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
